<html>
<title> - CHALLENGES TO THE FREEDOM OF SPEECH ON COLLEGE CAMPUSES: PART II</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  CHALLENGES TO THE FREEDOM OF SPEECH
                      ON COLLEGE CAMPUSES: PART II

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON HEALTHCARE,
                   BENEFITS, AND ADMINISTRATIVE RULES

                                AND THE

                            SUBCOMMITTEE ON
                       INTERGOVERNMENTAL AFFAIRS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 22, 2018

                               __________

                           Serial No. 115-105

                               __________

Printed for the use of the Committee on Oversight and Government Reform



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


        Available via the World Wide Web: http://www.Govinfo.gov
                       http://oversight.house.gov
                       
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
32-667 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana
Vacancy

                     Sheria Clarke, Staff Director
                    William McKenna, General Counsel
                Michael Koren, Professional Staff Member
      Sarah Vance, Healthcare, Benefits, and Administrative Rules 
                      Subcommittee Staff Director
                      Anudeep Buddharaju, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
     Subcommittee on Healthcare, Benefits, and Administrative Rules

                       Jim Jordan, Ohio, Chairman
Mark Walker, North Carolina, Vice    Raja Krishnamoorthi, Illinois, 
    Chair                                Ranking Minority Member
Darrell E. Issa, California          Jim Cooper, Tennessee
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Scott DesJarlais, Tennessee              Columbia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Glenn Grothman, Wisconsin            Bonnie Watson Coleman, New Jersey
Paul Mitchell, Michigan              Stacey E. Plaskett, Virgin Islands
                                 ------                                

               Subcommittee on Intergovernmental Affairs

                     Gary Palmer, Alabama, Chairman
Glenn Grothman, Wisconsin, Vice      Jamie Raskin, Maryland, Ranking 
    Chair                                Minority Member
John J. Duncan, Jr., Tennessee       Mark DeSaulnier, California
Virginia Foxx, North Carolina        Matt Cartwright, Pennsylvania
Thomas Massie, Kentucky              Wm. Lacy Clay, Missouri
Mark Walker, North Carolina          Vacancy
Mark Sanford, South Carolina
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 22, 2018.....................................     1

                               WITNESSES

Dr. Allison Stanger, Russell J. Leng '60 Professor of 
  International Politics and Economics, Middlebury College, 
  Vermont
    Oral Statement...............................................     7
    Written Statement............................................     9
Mr. Tyson Langhofer, Senior Counsel and Director, Center for 
  Academic Freedom, Alliance Defending Freedom
    Oral Statement...............................................    13
    Written Statement............................................    15
Dr. Bret Weinstein, Professor In-Exile, Evergreen State College, 
  Washington
    Oral Statement...............................................    25
Dr. Shaun Harper, Provost Professor of Education and Business, 
  Allen Chair in Urban Leadership, University of Southern 
  California
    Oral Statement...............................................    27
    Written Statement............................................    29
Dr. Robert P. George, McCormick Professor of Jurisprudence and 
  Director of the James Madison Program in American Ideals and 
  Institutions, Princeton University, New Jersey
    Oral Statement...............................................    33
    Written Statement............................................    36

                                
                                
                                APPENDIX

Response from Mr. Langhofer to Questions for the Record..........    94
Response from Dr. George to Questions for the Record.............    98
Response from Dr. Stanger to Questions for the Record............   100

 
    CHALLENGES TO THE FREEDOM OF SPEECH ON COLLEGE CAMPUSES: PART II

                              ----------                              


                         Tuesday, May 22, 2018

                  House of Representatives,
         Subcommittee on Health Care, Benefits and 
  Administrative Rules, joint with Subcommittee on 
                          Intergovernmental Affairs
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittees met, pursuant to call, at 2:05 p.m., in 
Room 2154, Rayburn House Office Building, Hon. Jim Jordan 
[chairman of the Subcommittee on Healthcare, Benefits, and 
Administrative Rules] presiding.
    Present from the Subcommittee on Healthcare, Benefits, and 
Administrative Rules: Representatives Jordan, Meadows, 
Mitchell, Krishnamoorthi, and Plaskett.
    Present from the Subcommittee on Intergovernmental Affairs: 
Representatives Palmer, Duncan, Foxx, Massie, Raskin, and 
DeSaulnier.
    Also Present: Representatives Stefanik, Handel, Brat, and 
Perry.
    Mr. Jordan. The subcommittees will come to order.
    We want to welcome our guests. We'll introduce you here in 
just a few minutes. You guys have done this, many of you have 
done this before. You know how this works. We'll have a few 
opening statements from some members, and then we'll get right 
to your individual testimony and then into questions.
    And so, I want to recognize first the subcommittee chairman 
from the great State of Alabama, Mr. Palmer, is recognized for 
an opening statement.
    Mr. Palmer. Thank you, Mr. Chairman. Thank you all for 
sharing your experiences on this critical topic.
    Ensuring our future of generations achieve a comprehensive 
well-rounded education is one of our most important pursuits 
that we can ever hope to achieve. Parents encourage their 
children to attend college in hopes that they are given the 
tools to thrive in society and in their lives.
    I would hope that all colleges, universities, would want 
their students to mature into adults who are well-prepared in 
every aspect of integration into our culture, into our society. 
Adults who can understand that their classmates may not agree 
100 percent with them. Adults that can find commonality with 
those who grew up different from themselves. But the mission of 
an intolerant group of students who are complacent, and 
sometimes not so complacent, support of universities has been 
to ensure that only one point of view gets expressed.
    When did they get into business of not challenging 
students' world views? It is well-established that States have 
legislative authority in setting education policy. It is no 
surprise that they have taken on the mantle of defending free 
speech on public campuses. States like North Carolina have 
banned what some of colleges refer to as free speech zones.
    These are small areas that some universities have confined 
their students to allow them to exercise their freedom of 
speech. Other States like Missouri and Utah have implemented 
small monetary awards, if a court finds violations of free 
speech on a college campus.
    The Wisconsin School System President, Ray Cross, noted 
perhaps the most important thing we can do as a university is 
to teach students how to engage and listen to those with whom 
they differ. If we don't show students how to do this, who 
will?
    In order to prevent substantially disruptive students from 
derailing events, the school system has adopted disciplinary 
measures on students who seek to usurp a speaker's First 
Amendment rights.
    The Federal Department of Justice stated they will not 
stand by idly while public universities violate students' 
constitutional rights. The Department of Justice has filed 
three statements of interest involving alleged First Amendment 
violations to students by universities.
    America's founding and our Constitution was premised on the 
exchange of ideas. Imagine where we would be right now if our 
country's forefathers were muted by their opponents.
    I want to thank the witnesses, again, for joining us to 
discuss how we can better improve our students' most 
fundamental protection, the freedom to express their views, and 
I would add, the freedom to associate and assemble.
    With that, Mr. Chairman, I yield back.
    Mr. Jordan. I thank the gentleman for his opening 
statement. I now recognize the gentleman from Maryland, 
Professor Raskin.
    Mr. Raskin. Mr. Chairman, thank you very much. I'm 
delighted to be with everybody today. As a professor of 
constitutional law and the First Amendment and someone who has 
been a volunteer attorney with the ACLU, and I served on the 
board of FIRE, these issues are of great interest and 
importance to me. And we need our colleges and universities to 
be modeling the best policies of freedom and toleration today, 
because we know we're getting all the wrong instructions from 
the highest levels of government today. Over the weekend, we 
learned that the President, who is unhappy with the coverage he 
gets in The Washington Post, and blames it on its owner, Jeff 
Bezos, has repeatedly pushed Postmaster General Megan Brennan 
to double the rates that the Postal Service charges Amazon.com 
for delivering its products.
    This silly effort to retaliate against Mr. Bezos, an 
American businessman, because of unwanted news coverage, is an 
outrageous violation of the First Amendment, more 
characteristic of the political ethics of a dictator in a 
banana republic than it is of the President of the United 
States.
    Nonetheless, it is always true to form for this President, 
who has selectively excluded media entities from White House 
press conferences, leveled angry threats against NBC, whose 
license he said should be challenged and revoked, and has 
issued frequent broadsides against the media, which he 
describes as the enemy of the people.
    Here in Congress, we have a colleague who was a candidate 
actually violently assaulted a reporter who asked him an 
unwanted question. According to the Fox News crew which 
reported it, he grabbed the reporter by the neck with both 
hands, and slammed him into the ground behind him, then began 
punching the reporter.
    These kinds of attacks on other people's free speech 
reflect not just profound personal insecurity, but an 
intentional ignorance of constitutional values. An ignorance 
which is especially dangerous in people who wield State power. 
So we do need an aggressive defense on campus about the 
enlightenment principle articulated by Voltaire, ``I disagree 
with everything you say, but I will defend with my life your 
right to say it.''
    The problem these days, of course, is that on campus and in 
the media, everyone defends only the free speech that they 
actually support or find useful. When racist misogynists and 
outright provocateurs like Milo Yiannopoulos or Richard Pierce 
get drowned out by hecklers, or driven off of a liberal campus 
like Berkeley, conservatives blow the whistle on left wing 
political correctness and vigilante censorship, and well they 
should.
    When a group of students menaced and assaulted Professor 
Stanger who was with Charles Murray, this was outrageous, and 
conservatives denounced it. The liberals should be denouncing 
it, too.
    When Liberty University, this past April, banned from 
campus and threatened to have arrested Shane Claiborne, a 
Christian social activist who advocates for nonviolence and 
wanted to conduct a peaceful vigil against gun violence and for 
gun safety reforms, liberals were up in arms about right wing 
political correctness and censorship on campus, but 
conservatives were completely silent.
    When Georgetown refused to recognize Hoyas for Choice, a 
pro-choice student group, and discriminates against them in 
their ability to preserve rooms, post notices for meetings and 
so on, liberals cry foul and denounce right wing censorship on 
campus, but conservatives stay mum.
    And when we learned a couple weeks ago that George Mason, 
which reportedly granted faculty hiring and firing authority to 
Charles Koch, a billionaire oil executive who made a $50 
million gift to the school, progressives erupted in protest 
over this violation of academic freedom and independence. But 
we heard nothing from the people who were agitated about the 
heckling and juvenile interruptions of Milo Yiannopoulos or 
other provocateurs on campus.
    Now, there are complex issues in this field, which I hope 
when can address, like the whole subject of disinvitation, 
someone who makes an invitation presumably has a right to 
disinvite, too. After all, the invitation goes to a guest who 
appears at the grace of the host. On the other hand, I don't 
think it's the most polite thing to do. I'm not sure it's 
unconstitutional, but that's something I think is worthy of 
some discussion.
    The most vexing issue, I think, is the problem of serious 
hate speech interlaced with weapons. We saw that the alt-right 
movement is capable of deadly violence.
    In August of 2017, in Charlottesville, when 2 days of 
racial and religious incitement, some of it on the UVA campus, 
led to the murder of Heather Heyer, the deaths of several 
officers in a helicopter, and the injury of more than a dozen 
other people.
    Given this kind of climate and the serious fear the college 
presidents and deans have, and the heavy legal liability they 
possess, what reasonable steps and precautions may they take to 
preserve peace on campus while stillrespecting the freedom of 
expression? That is a serious issue that deserves some serious 
analysis.
    I am opposed to free speech zones, because I have always 
believed that America itself is the free speech zone, and it 
cannot be cordoned off and quarantined at the far edges of 
campus. But what can administrators reasonably do? This is 
something that we need real advice and direction on.
    I hope we can revive a robust free speech culture on campus 
today, Mr. Chairman, one which respects the rights and freedoms 
of all.
    Thank you very much.
    Mr. Jordan. I thank the gentleman. Let me just, again, 
thank our witnesses for being here and for my colleagues for 
being here this afternoon to discuss the First Amendment, one 
of the great freedoms the American people enjoy. And we're 
doing so at a time where in the not too distant past, we have 
seen the Federal Government, specifically the IRS, target 
people for exercising their First Amendment free speech 
political rights.
    We do so at a time where over the past academic year, there 
have been several troubling incidents at colleges across the 
country. And today, we hear firsthand from our witnesses who 
are at the forefront of the debate over free speech on 
America's campuses.
    There's been a trend of intolerance against those voicing 
unpopular ideas or speech deemed disagreeable or offensive by 
some students and faculty at colleges and universities.
    This is occurring across the ideological spectrum, and even 
at law schools, even at law schools, where students should be 
taught to engage in a civil way with each other's viewpoints. 
This past March, at Lewis & Clark Law School and at The City 
University of New York Law School, protests disrupted. Speakers 
who were invited to speak at Lewis & Clark, a member of the 
school's administration was present, reportedly the Dean for 
diversity, but they stood by and did nothing, allowing a 
heckler's veto to silence an invited speaker instead of 
encourage students to debate ideas that they disagreed with.
    In another instance, administrators at a community college 
forced an 8-year Navy veteran to stop distributing--and get 
this--pocket-sized U.S. Constitutions.
    Professor Raskin, we wouldn't want students reading the 
Constitution, would we? Because he hadn't received a permit to 
distribute preapproved material. So the very document that 
allows us to enjoy this great Nation wasn't deemed preapproved 
material, this individual took an oath to defend this document 
and the ideals he embodies, but he wasn't allowed to hand out 
free copies of the United States Constitution. Because his 
students stood up for the most basic rights, the school, 
thankfully, changed their unconstitutional policy.
    At our first hearing on this subject, we heard from civil 
rights experts, administrators, and speakers who had been 
shouted down and threatened, disinvited because of their 
beliefs. We even heard from a comedian. Mr. Krishnamoorthi, I 
think he made a little joke about the length of the letters in 
your name.
    Today, our panel consists of witnesses who were not only 
shouted down, but physically assaulted, in the case of 
Dr.Stanger, and ousted from their teaching jobs, in the case of 
Dr. Weinstein. Let's be clear. College is a place for young 
minds to be intellectually stimulated and challenged with new 
ideas and ways of thinking. Unfortunately, at many 
institutions, students and faculty are forced into self-
censorship out of fear of triggering, violating a safe space, 
creating a microaggression or being targeted by a biased-
response team.
    At one university when reporting bias, and I quote, ``the 
most important indication of bias is your own feelings. Real 
objective standard there, Mr. Raskin, right?
    To borrow a phrase from--facts don't care about your 
feelings. And as Justice Brandeistold us, ``the answer to bad 
speech is more speech.'' Restricting speech that does not 
conform to popular opinion, imperils the politically weakest 
among us from speaking at all, which is exactly what the First 
Amendment is designed to prevent.
    When students go back to school in the fall, are these 
institutions going to be more open to civil debate? We 
certainly hope so. And that is the focus of our hearing today. 
And so, again, thank you to our witnesses for appearing with us 
today, and I look forward to hearing your testimony in just a 
few minutes, but first we have the gentleman, the right fine 
gentleman with the long name, who is the ranking member who 
gets his opening statement. And then we'll get to our 
witnesses.
    Mr. Krishnamoorthi. I welcome comedic speech at this 
hearing. And I hope there will be some to lighten things up. I 
should just tell you, in that hearing I introduced myself as 
had Raja Krishnamoorthi and somebody said Roger Christian 
Murphy, very nice to meet you. I didn't know the Irish made it 
to India.
    Well, thank you, Mr. Chairman, and thank you, ranking 
members, for allowing me just a couple minutes of time to 
address this very important topic.
    Our First Amendment protections are among our most 
cherished rights, and I think everybody in this room knows 
that. Free speech is a cornerstone of the Nation's commitment 
to ensuring that we are able to have a robust and wide-open 
discussion.
    The Supreme Court has rightly held that practically any 
peaceably expressed idea cannot be suppressed by law, no matter 
how unpopular, repugnant, crude, or ill-informed it may be. 
While certain restrictions on the time, place, and manner of 
speech can exist, any law that seeks to limit the substance of 
speech should be approached with great caution.
    Restrictions may exist on how, when, and where people say 
things, but the government fundamentally should not restrict 
what people say. However, free speech does not mean the right 
to be free from criticism.
    As I have a right to state my view, you have a right to 
disagree, vocally, passionately and peaceably. And humorously. 
There is a clear and present danger facing colleges and 
universities across the Nation making peaceful disagreement 
difficult; namely, an increase in white supremacist hate groups 
on campuses and the targeting and harassing of students because 
of their religion, race, and sexual identity.
    This is not about culture wars or liberal versus 
conservative. This is about our values as a society making our 
children safe to engage in civil discourse, to use their First 
Amendment rights free from coercion. Today, white supremacists 
groups and other hate groups are a significant challenge for 
the exercise of First Amendment rights on college campuses.
    According to the Anti-Defamation League, white supremacists 
are engaged in an unprecedented set of outreach efforts on 
American college campuses. They are pursuing a deliberate 
strategy of recruiting college students. They are also 
increasing the incidents of hate speech on campuses, targeting 
and threatening students for their race, religion, and sexual 
identity.
    From the fall of 2016 to the fall of 2017, the ADL reported 
that there was a 258 percent increase in white supremacists 
propaganda efforts, such as the dissemination of racist flyers 
and stickers on college campuses.
    Along with this rise came an increased number of incidents 
of Anti-Semitic, racist, and other hateful expressions that 
target and harass students on college campuses.
    The Southern Poverty Law Center reported that in the first 
10 days, the first 10 days after the 2016 presidential 
election, there were 140 incidents of hate-biased attacks on 
university campuses.
    Coinciding with these unprecedented increases in hateful 
expression, a significant decrease in free speech suppression 
on college campuses is also happening. The Foundation For 
Individual Rights and Education reports that in 2017, there 
were just 35 disinvitation attempts, of which 19 were 
successful.
    This number is down from 43 in 2016. This organization also 
reported that the number of universities having official quote, 
unquote, ``speech codes'' has been dropping each year and is 
currently at an all-time low.
    As we examine the issue of free speech today on college 
campuses, let's keep the focus on addressing the real source of 
danger to the expression of freedom of speech, namely, an 
alarming increase in white supremacist and hate group activity.
    Thank you, Mr. Chairman.
    Mr. Jordan. I thank the gentleman. I would ask unanimous 
consent that Ms. Stefanik, Ms. Handel,Mr. Estes, Mr. Brat, and 
Mr. Perry be able to participate in today's hearing.
    Without objection, so ordered.
    We now turn to our distinguished witnesses.
    Mr. Langhofer, Mr. Tyson Langhofer is Senior Counsel and 
Director for Center for Academic Freedom at the Alliance 
Defense Fund. Mr. Langhofer, we appreciate you being here.
    Dr. Bret Weinstein, Professor In-exile, and I believe 
that's an actual title you have. Is that right, Mr.----
    Mr. Weinstein. Yes.
    Mr. Jordan. Yeah. Professor In-exile, Evergreen State 
College from Washington is with us. We appreciate you being 
here.
    Dr. Allison Stanger, Professor of International Politics 
and Economics at Middlebury College in Vermont is with us. And 
Dr. Shaun Harper, Professor of Education and Business at the 
University of Southern California. And, of course, Dr. Robert 
George McCormick, Professor of Jurisprudence and Director of 
the James Madison Program in American Ideals and Institutions 
at Princeton University, of course, in New Jersey, is with us.
    Welcome to all. And pursuant to committee rules, I ask that 
you all stand. We swear everyone in here. So if you would 
please stand and raise your right.
    Do you solemnly swear or affirm the testimony you're about 
to give is the truth, the whole truth, and nothing but the 
truth, so help you God?
    Let the record show that everyone, each witness answered in 
the affirmative.
    Mr. Langhofer, we're going to go right down the list.
    Actually, we're going to start with Dr.Stanger, then we're 
going to go right down the list. And we'll start with Dr. 
Stanger first, and then move right down there.
    So, Ms. Stanger, you're recognized.

                       WITNESS STATEMENTS

                  STATEMENT OF ALLISON STANGER

    Ms. Stanger. Well, thank you very much. You've invited me 
to testify about my own personal experiences with free speech 
issues on college campuses and what I have learned from them.
    It is an honor and privilege to share some thoughts with 
you here today, and I look forward to answering your questions.
    Many see a leftward ideological tilt among university 
professors and programs as compared with the general 
population. What is undeniably true that most American 
professors do not identify as conservative, I would argue that 
the academy is not tilting leftward. Rather, it is defining 
college community in opposition to the life of the mind.
    This is no trivial reorientation. Nothing less than free 
inquiry and the civil discourse upon which American 
constitutional democracy depends is at stake.
    I think this is a situation that can be righted and it 
should be up to universities to do that, but we can talk about 
that.
    So what can be done? I think calls for viewpoint diversity 
will not entirely address the problem, because they simply 
further politicize a realm that should make every effort to 
transcend politics and give every scholarly argument its proper 
due, regardless of its origins and regardless of what majority 
opinion might be.
    Balancing left and right that is a political agenda is of 
lesser importance than allowing reason, logic, and above all, 
empathy to reign supreme.
    The university must therefore stand against group think and 
campus illiberalism. It must take the lead in educating our 
students and the public on the dangerous consequences of 
believing you can build a better world through the 
dehumanization of other human beings.
    The voices of the marginalized must be amplified and heard, 
while remembering always that extremism, in all its 
permutations, is ultimately the denial of empathy's importance 
for human flourishing.
    Perhaps most importantly, there is also a role for every 
American citizen to play, especially distinguished Members of 
Congress. Each and every one of us can model the behavior we 
would like to see from others. Our political discourse in this 
country would improve immeasurably if all of us would simply 
renounce lies and ad hominem attacks masquerading as arguments. 
And instead, call them out for what they actually are: threats 
to the civil discourse on which free inquiry, democracy, and 
the rule of law depend.
    Much is at stake in defending freedom of expression. 
Because democracy cannot function when loyalty trumps truth. In 
a 1974 interview, Hannah Arendt explained, ``If everybody 
always lies to you, the consequence is not that you believe the 
lies, but rather that nobody believes anything any longer. And 
a people that no longer can believe anything cannot make up its 
mind. It is deprived not only of its capacity to act, but also 
of its capacity to think and to judge. And with such a people, 
you can then do what you please.''
    While breaking with our own tribe for the sake of the truth 
may be uncomfortable, we as Americans are indisputably free to 
do it. We owe it to ourselves and to our children who are 
watching us, to avoid taking the path of least resistance and 
instead, do what is right, both to defend truth and to defend 
the republic.
    Thank you. And I welcome your questions.
    [Prepared statement of Ms. Stanger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you, Doctor. Mr. Langhofer, you're 
recognized.


                  STATEMENT OF TYSON LANGHOFER

    Mr. Langhofer. Good afternoon, Mr. Chairman, and members of 
the committee. Thank you for the opportunity to testify before 
you today. My name is Tyson Langhofer, and I'm senior counsel 
with Alliance Defending Freedom, and the director of the Center 
for Academic Freedom, which is dedicated to protecting freedom 
of speech and association for students and faculty at public 
universities, so that everyone can freely participate in the 
marketplace of ideas without fear of government censorship.
    Over the last 12 years, ADF has secured almost 400 
victories for free speech on America's college campuses. While 
these victories show that the law is on the side of free 
speech, the fact that there are this many infringements taking 
place raises grave concerns.
    In the United States, the only permit a student should need 
to speak freely on public university campus is the First 
Amendment. But unfortunately, many taxpayer-funded public 
universities enforce policies that suppress and stifle the 
marketplace of ideas that campuses were intended to be, and it 
created a college culture that fears rather than respects 
differences of opinion.
    Ironically, colleges are some of the most diverse places in 
the entire country, spending millions of dollars every year on 
all kinds of diversity initiatives. Yet, public universities 
are some of the most ideologically intolerant places in the 
entire country.
    Why is that? There exists a lack of intellectual diversity, 
respect for diversity of thought. Uniformity of thought breeds 
intolerance, especially when enforced by government mandate.
    Unfortunately, most of today's colleges have chosen to 
regulate rather than to respect freedom and authentic 
diversity. They do so by enacting an array of policies that 
infringe upon students' First Amendment rights.
    I will briefly discuss three of the most prevalent. The 
first categories of speech zone policy. A speech zone is a 
policy that prohibits students from speaking or distributing 
literature anywhere in the open outdoor areas of campus, except 
for a very small speech zone.
    For example, we recently represented Michelle Gregory, a 
student at Kellogg Community College in Michigan.
    Michele was in the process of forming a Young Americans for 
Liberty Student Group. Michelle and three other YAL supporters 
were on a large open walkway on campus handing out pocket-sized 
copies of the U.S. Constitution. They were not blocking access 
to buildings or pedestrian traffic, and were not interfering 
with any activities. Yet college administrators and campus 
security arrested, jailed, and charged them with criminal 
trespass, simply for speaking outside the speech zones.
    Thankfully, after ADF filed a lawsuit, the charges were 
dropped, and the school eventually changed its policy. But 
students literally spent the evening in jail for asking their 
fellow students if they would like to learn more about freedom 
and the U.S. Constitution.
    The second category of unconstitutional policy is speech 
codes. A speech code is a policy or regulation that prohibits 
or punishes a certain types of speech that colleges view as 
demeaning, uncivil, derogatory, or discriminatory.
    For example, ADF represents Chike Uzuegbunam, a student at 
Georgia Gwinnett College. Chike was in an outdoor area of 
campus talking with other students about his faith. School 
officials ordered him to leave because they said he had 
violated the college's speech code, which forbids any 
expression that, quote, ``disturbs the peace and/or comfort of 
persons.''
    After ADF filed a lawsuit, the school modified this portion 
of its policy, but this case is still ongoing.
    The third category of policies involve how schools allocate 
student activity fees. A student activity fee is a mandatory 
fee that most colleges charge in addition to tuition to fund 
the expressive activities of student organizations.
    Unfortunately, many universities' student activity fee 
policies are allocated in an unconstitutional viewpoint 
discriminatory manner. For example, last month, we filed a 
lawsuit against Kennesaw State University on behalf of Young 
Americans For Freedom. The college gives university officials 
sole discretion to rank student organizations subjectively into 
one of four classifications that function as a sort of caste 
system for preferential treatment, including which areas of 
campus that they can use, and the amount of funding for 
activities.
    These are just a few examples demonstrating that today's 
colleges are failing to educate their students about rights 
afforded by the First Amendment and about their duties as 
citizens of this great country.
    Our First Amendment demands better. Our colleges can do 
better. Our students deserve better. In an essay on the purpose 
of education, Dr.Martin Luther King said, to save man from the 
morass of propaganda, in my opinion, is one of the chief aims 
of education. Education must enable one to sift and weigh 
evidence, to discern the true from the false, the real from the 
unreal, and the facts from the fiction.
    Dr.King closed with this warning: ``If we are not careful, 
our colleges will produce a group of close-minded unscientific, 
illogical propagandists consumed with immoral acts. Be careful, 
brethren. Becareful, teachers.''
    I commend the members of the committee for recognizing the 
importance of protecting college students' First Amendment 
rights on campus. And I am happy to answer any questions.
    [Prepared statement of Mr. Langhofer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you, Mr. Langhofer, for that.
    I notice we have some young people with--lots of young 
people in the audience. Some have t-shirts on. We want to 
welcome the students who are here supporting First Amendment 
rights. And I also notice we have a nice young lady who happens 
to be the wife of our colleague, Mr. Meadows, who is in the 
audience, along with their son Blake. So welcome to Ms. 
Meadows, and Blake as well.
    We now go to Dr.Weinstein, Professor In-exile. We're 
waiting for what that all means. Doctor, you've got 5 minutes.


                  STATEMENT OF BRET WEINSTEIN

    Mr. Weinstein. Mr. Chairman, distinguished members of the 
committee, thank you for the invitation to address you.
    Tomorrow is the 1-year anniversary of the day 50 Evergreen 
students, students that I had never met, disrupted my class, 
accusing me of racism and demanding my resignation. I tried to 
reason with them. I felt no fear because I knew that whatever 
my failings might be, bigotry was not among them. At that 
moment, I felt sure I could reach them. I also felt a moral 
obligation to try. That racism squanders human potential and 
erodes human dignity offends me.
    I am also well-versed in the evolutionary logic that makes 
racism durable. I should have had no trouble establishing 
common ground. Their response surprised me. It would take 
months for me to fully understand what had happened. The 
protesters had no apparent interest in the very dialogue they 
seemed to invite.
    I was even more surprised by the protesters fervor in 
shouting down my actual students, some of whom had known me for 
years. The cruelty and the derision reserved for students of 
color who spoke in my defense was particularly troubling.
    If not discussion, what did they want? I was one of 
Evergreen's most popular professors, I had Evergreen's version 
of tenure. Did they really think they could force my 
resignation based on a meritless accusation? They did think 
that. And they were right.
    What I had not counted on was their alliance with 
Evergreen's new president. Though the protesters openly 
humiliated him, the president of the college partnered with the 
mob in private, handing them concession after concession. We 
know this because the rioters filmed everything and proudly 
uploaded it.
    In one particularly telling video, the president calmly 
discusses with the leaders of the protest a demand to target 
stem faculty based on the empty assertion that scientists are 
particularly prone to bias.
    In that same video, the president speaks of his plan for 
those who resist the new order. Bring them in, train them, and 
if it doesn't take, sanction them. He invites his partners to 
hold him to it.
    On the second day of unrest, the police chief called me. 
Rioters were stopping traffic and searching for someone car-to-
car. The chief believed they were searching for me. She was 
worried for my safety and helpless to protect me as the 
president had ordered her force to stand down. What would have 
transpired if the rioters had found me? I still don't know, and 
I strongly suspect they don't either.
    The protest in my class did not emerge out of the blue in 
May of 2017. One year earlier, I stood up and spoke in 
opposition to a dangerous proposal, one that threatened to 
establish a racial hierarchy amongst faculty.
    To those who have not faced something similar, this likely 
sounds hyperbolic, but one can now advance such policies and 
almost certainly succeed in passing them if they are properly 
draped in weaponized terminology.
    Equity, for example, has taken on special properties. If a 
person opposes an equity proposal, those advancing the proposal 
are secure in asserting that the person is motivated by 
opposition to racial equity itself. In other words, they are 
racist.
    My opposition to that first equity proposal was voiced to 
my colleagues with no students present. Demands for my 
resignation 1 year later in May of 2017 were not the result of 
organic student confusion, they were payback for violating a de 
facto code of faculty conduct, in which one's right to speak is 
now dictated by adherence to an ascendent orthodoxy in which 
one's race, gender, and sexual orientation are paramount. The 
students were on a mission. They were unwitting tools of a 
witting movement.
    This committee should take my tale as cautionary. Is there 
a free speech crisis on college campuses? One can certainly 
make that argument. But that portrayal is at least as 
misleading as it is informative.
    What is occurring on college campuses is about power and 
control. Speech is impeded as a last resort, used when people 
or groups fail to self-censor in response to a threat of 
crippling stigma and the destruction of their capacity to earn.
    These tools are being used to unhook the values that bind 
us together as a Nation. Equal protection under the law, the 
presumption of innocence, a free marketplace of ideas, the 
concept that people should be judged by the content of their 
character rather than the color of their skin. Yes, even that 
core tenet of the civil rights movement is being dismantled.
    Am I alleging a conspiracy? No. What I have seen functions 
much more like a cult in which the purpose is only understood 
by the leaders and the rest have been seduced into a carefully 
architected fiction.
    Most of the people involved in this movement earnestly 
believe that they were acting nobly to end oppression. Only the 
leaders understand that the true goal is to turn the tables of 
oppression.
    Something is seriously and dangerously amiss. At this 
moment in history, the center does not hold. Partisan 
polarization and political corruption have rendered government 
ineffective, predatory, and often cruelly indifferent to the 
suffering of American citizens. Tribalism is the natural 
result.
    Evergreen's public meltdown placed me in the eye of the 
storm and cast me into the spotlight. As a member of the 
intellectual dark web, I find myself at the vanguard of an 
emerging nonideological, nonpartisan movement.
    Along the Heterodox Academy and the Foundation for 
Individual Rights in Education, we are fighting to restore 
civility and respect for competing perspectives. The electra is 
starved for honest debate and for the good governance that 
follows from it.
    My advice to this body is to put the Nation and its core 
values ahead of partisanship, and join us in the center to end 
this cultish power grab and return us to a forward path as a 
Nation. And I look forward to your questions.
    Mr. Jordan. Thank you, Doctor. Dr.Harper.


                   STATEMENT OF SHAUN HARPER

    Mr. Harper. Mr. Chairman and distinguished members, thank 
you for inviting me to contribute to this important 
conversation.
    In my prior role as a tenured professor at the University 
of Pennsylvania, I founded an Interdisciplinary Research Center 
focused on race and education, workplace settings in our larger 
society. I relocated that Center with me to the University of 
Southern California last summer.
    I've spoken about the Center's studies and my independent 
research at hundreds of colleges and universities across the 
United States. Surely, not every person on campuses at which 
I've spoken found my ideas and research findings agreeable.
    Notwithstanding, I've never had a speaking invitation 
withdrawn or had any group publicly protest a speech I 
delivered. It is important to acknowledge, however, that 
university administrators absolutely reserve the right to 
rescind speaking invitations they extend to me or anyone else. 
As a matter of fact, they typically make this clear in 
contractual agreements. These contracts are between 
institutions and their invited guests. I see no need for 
congressional intervention.
    For at least three reasons, tuition-paying college students 
have the right to protest people who bring hateful and 
poisonous messages to their communities.
    First, it is their campus. They pay to be there. Students 
have to learn, and in many cases, live there long after 
controversial speakers have come and gone.
    Second, student activity fee money is often used to fund 
expensive speakers, including those whom conservative student 
groups invite. Most people feel they have a say in something 
their money helps to finance.
    College students who pay tuition and fees are entitled to 
oppose spending thousands of their dollars on inflammatory 
divisive guest speakers.
    Third, and most importantly, college students have the 
constitutional right to protest. Their freedom of speech is 
just as valuable as the First Amendment rights of controversial 
speakers and people who support them.
    My Ph.D is in higher education. This has been my primary 
academic field of study for two decades. Having been elected by 
my peers to serve as national president of the Association for 
the Study of Higher Education, I feel a serious sense of 
responsibility to help preserve colleges and universities as 
marketplaces for contested ideas and sites of serious 
intellectual debate.
    I wholeheartedly agree that more speech, not less, advances 
the democratic purposes of American higher education.
    Sending millions of college-educated citizens into the 
workforce with little experience talking with people who 
disagree with them politically, is a significant failure of our 
Nation's post-secondary institutions.
    Many campus complex pertaining to speech are inescapably 
racialized. Race is almost always at the center. Yet in 
conversations about free speech, rarely is race and racism ever 
named. My research shows that we send far too many college 
graduates into the workforce without a proper course of study 
on race, racism, and racial inequity.
    Leaders in most sectors of our economy have college 
degrees. And a disproportionately high number of them are 
white. White Americans comprise 94 percent of governors. 87 
percent of the U.S. Senate, 76 percent of the U.S. House of 
Representatives, 80 percent of K-12 teachers, 73 percent of 
college faculty members, and 83 percent of college and 
university presidents.
    Given these demographics, post secondary institutions act 
irresponsibly when we fail to create conditions that bring 
together whites and students of color to talk and learn across 
racial and political lines. This, as I see it, is a matter of 
institutional responsibility.
    According to the U.S. Department of Education, our country 
has 4,724 degree-granting post secondary institutions. Shouting 
down and rescinding invitations from highly compensated guest 
speakers is an issue plaguing only a tiny fraction of that 
4,724 colleges and universities.
    College student activists are often accused of attempting 
to suppress their professor's speech. In 2016, there were more 
than 1.4 million faculty members at U.S. colleges and 
universities.
    Even if 10,000 professors, which is a hypothetically high 
number, experienced aggressive encounters with speech 
suppressors on campus, that would be just 0.7 percent of the 
total faculty members nationwide.
    Most colleges and universities, including my own, host 
dozens, sometimes hundreds, of speakers each year who bring a 
wide range of perspectives to campus. The overwhelming majority 
of these speakers do not experience protests.
    But unlike the few who do, many of whom, by the way, are 
entertainers, not academicians. Unlike those, I would invite 
student protesters into a conversation with me about our 
ideological and factual disagreements.
    I would insist that those who support my viewpoints make 
space to respectfully listen to and talk with others who do 
not. It is not an entertainer's financial or celebrity interest 
to patiently engage disagreeable students in productive 
conversations across partisan and racial lines.
    Again, I believe that this a challenge for college and 
university leaders. It is certainly not a matter for the 
Congress and the courts, in my opinion.
    I look forward to your questions.
    [Prepared statement of Mr. Harper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Dr.Harper, are you suggesting entertainers 
don't have First Amendment rights?
    Mr. Harper. I am absolutely respecting that entertainers 
have First Amendment rights. What I am suggesting, though, is 
that they are not there to advance educational purposes.
    Mr. Jordan. They're not?
    Mr. Harper. And these are educational institutions.
    Mr. Jordan. They were invited by a university to come, and 
they have First Amendment rights, but they're not there to 
advance education? I don't get that. But we'll get to 
questions. I just want to be clear that entertainers, just 
because you're an entertainer doesn't mean you forfeit your 
personal liberties on the college campus, is that right?
    Mr. Harper. Absolutely. Everyone.
    Mr. Jordan. Okay. Dr.George, you're recognized for your 5 
minutes.

                 STATEMENT OF ROBERT P. GEORGE

    Mr. George. Thank you. I wish to thank the chairman, the 
ranking member, Mr. Raskin, Mr. Palmer and members of this 
committee for holding this important hearing and inviting me to 
give testimony.
    It's a particular honor to appear alongside Professor 
Stanger and Professor Weinstein whose courage, integrity, and 
commitment to freedom of thought and expression and robust 
civil discourse are inspiring.
    I've provided the committee staff with my formal written 
testimony. This afternoon, I wish to share some thoughts drawn 
largely from a statement I issued some months back with my dear 
friend and teaching partner, Professor Cornell West.
    Professor West and I, though representing different 
political perspectives, shared concerns about the state of 
American higher education and the condition of American 
democracy.
    We worry that too narrow a range of perspectives is 
represented in a great many colleges and universities, 
especially among faculty, and that this tends to create an echo 
chamber in which education degenerates into indoctrination. 
Dissent is stigmatized, marginalized, and sometimes even 
punished or driven off the campus.
    We also worry that the American people are becoming 
polarized in ways that foment a level of distrust and hostility 
to each other and an unwillingness to listen to and engage each 
other that undermines the foundations of our democratic civic 
life. And Mr. Raskin is correct that at the highest levels, 
this is being exacerbated. It's also alas bipartisan.
    By hard experience, mankind has learned that the pursuit of 
knowledge and the maintenance of a free and democratic society 
require the cultivation and practice of certain virtues, 
including intellectual humility, openness of mind, and above 
all, love of truth.
    These virtues will manifest themselves and be strengthened 
by one's willingness to listen attentively and respectfully to 
intelligent people who challenge one's beliefs, and who 
represent causes one disagrees with and points of view one does 
not share.
    That's why all of us should seek respectfully to engage 
with people who challenge our views. And we should oppose 
efforts to silence those with whom we disagree, especially on 
college and university campuses.
    As the great 19th Century English liberal philosopher John 
Stuart Mill thought, a recognition of the possibility that we 
may be in error is a good reason to listen and honestly 
consider and not merely tolerate grudgingly to other points of 
view that we do not share, and even perspectives that we find 
shocking, and even scandalous.
    What's more, as Mill noted, even if one happens to be right 
about this or that disputed matter, seriously and respectfully 
engaging people who disagree will deepen one's understanding of 
the truth and sharpen one's ability to defend it.
    Now, none of us is infallible. That should be the starting 
point of any discussion of intellectual life. None of us is 
infallible. Whether you're a person of the right, the left, the 
center or wherever, there are reasonable people of goodwill who 
do not share your fundamental convictions, and yet, too often 
we refuse to acknowledge that.
    Now this doesn't mean that all opinions are equally valid 
or that all speakers are equally worth listening to. It 
certainly does not mean that there's no truth to be discovered, 
nor does it mean that you are necessarily wrong. But they are 
not necessarily wrong either.
    So someone who is not fallen into the idolatry of 
worshipping his or her own opinions and loving them above truth 
itself will want to listen to people who see things 
differently.
    In order to learn what considerations, evidence, reasons, 
arguments, led them to a place different from where one 
happens, at least for now, to find oneself.
    All of us should be willing, even eager to engage with 
anyone who is willing to do business in the currency of truth-
seeking discourse by offering reasons, marshaling evidence, and 
making arguments.
    The more important the subject under discussion, the more 
willing we should be to listen to and engage, especially if the 
person with whom we are in conversation will challenge our 
deeply-held, even our most cherished and identity-forming 
beliefs.
    It's all too common these days for people to try to 
immunize from criticism opinions that happen to be dominant in 
their particular community, wherever they are. Sometimes this 
is done by questioning the motives, and thus, stigmatizing 
dissent from prevailing opinions, or by disrupting their 
presentations, or by demanding that they be excluded from 
campus, or if they've been invited, disinvited.
    Sometimes students and faculty members turn their backs on 
speakers whose opinions they don't like, or simply walk out or 
refuse to listen to those whose convictions offend their 
values.
    Of course, the right to peacefully protest, including on 
campuses, is sacrosanct. Absolutely. But before exercising that 
right, I encourage my students to ask themselves, Might it not 
be better to listen respectfully and try to learn from a 
speaker with whom one disagrees.
    Might it better serve the cause of truth seeking to engage 
in a frank, civil discussion.
    Our willingness to listen to and respectfully engage those 
with whom we disagree contributes vitally to maintenance of a 
milieu in which people feel free to speak their minds, consider 
unpopular opinions, explore the lines of argument that may 
undercut established ways of thinking.
    Such an ethos protects us against dogmatism and group 
think, both of which are toxic to the health of academic 
communities and to the functioning of democracies.
    When universities are permitted to degenerate into 
ideological echo chambers, which is what tends to happen when 
we lack viewpoint diversity, especially among faculty, freedom 
of thought and expression quickly come under attack and are 
sooner or later lost. Dissent from campus orthodoxy comes to be 
perceived, and even experienced as attacks on our communities' 
values and even personal assaults.
    People begin defining what they call hate speech way too 
broadly in saying such things as, Free speech is violence. Some 
may even begin defending actual violence, violence against 
dissenters from campus orthodoxies as a form of free speech.
    [Prepared statement of Mr. George follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Jordan. Thank you so much, Doctor. I want to thank all 
our witnesses for outstanding testimony and for the experiences 
you had and what you bring to the committees today.
    I'm going to start with the gentleman from Alabama for his 
5 minutes of questions.
    Mr. Palmer. Thank you, Mr. Chairman. Mr. Harper, some of 
what you said is very troubling.
    You made the statement that ``student activity fee money is 
often used to fund speakers, including those whom College 
Republicans and other conservative students groups invite.'' 
And I'm reading from your written testimony. ``Most people feel 
they have a say in something their money helps finance; college 
students who pay tuition and fees are entitled to opposed 
giving thousands of their dollars to an inflammatory, divisive 
speaker.''
    First of all, I would hate to have one of my children at a 
college that charges them thousands of dollars in university 
fees. I have some serious issues with that.
    What I want to ask you, do conservative students who pay 
those same fees have a right to demand that their activity fee 
not be used to fund speakers or programs with which they 
disagree? Do they have that same right?
    Mr. Harper. Absolutely.
    Mr. Palmer. So they could take action? They could go to the 
university and demand, and the university would be required to 
comply with that demand not to invite somebody that these 
students disagreed with?
    Mr. Harper. Require, no. As is the case with the 
disinvitations of the conservative speakers----
    Mr. Palmer. Well, let me ask you this: If there were 
somebody they disagreed with from a liberal perspective, would 
those students be able to disrupt that speech, shout them down, 
do whatever they wanted to? I don't know where you're going 
with that, but----
    Mr. Harper. To be----
    Mr. Palmer. --and then let me add this: You also pointed 
out--and I'll come to you, Dr. Stanger. And I do appreciate you 
and Dr.Weinstein being here--you said that these activities 
where literally, these conservative students or newspapers have 
been confiscated. That's speech, isn't it? You agree that's 
written speech? Would you agree with that?
    Mr. Harper. Absolutely.
    Mr. Palmer. Thank you very much. Because University of 
Oregon, Oregon State actually paid $101,000 to settle a suit 
over trash in conservative newspaper, student newspaper, where 
they confiscated those papers. And the interesting thing about 
it is, Mr. Chairman, the U.S. 9th Federal Circuit upheld that 
decision. So that was pretty egregious.
    You say it's rare. Does that mean that you accept the 
denial of free speech, if it's rare? Is that acceptable?
    Mr. Harper. As I stated----
    Mr. Palmer. That's a yes or no. I mean, we're not going to 
filibuster. It's a yes or a no. I've got 2 minutes and a half 
left
    Mr. Harper. I'm a person who speaks in context. I can't 
offer you----
    Mr. Palmer. That is in context. It's a simple question. You 
can answer either answer it yes or no. Do you support anyone, 6 
percent of professors denying any student their right to free 
speech to publish a conservative paper, to publish a liberal 
paper, if it disagrees with their position? Do you support even 
.6 percent denial of free speech?
    Mr. Harper. I refuse to answer your question without the 
opportunity for context.
    Mr. Palmer. That's because you don't have an answer.
    Mr. Harper. I do have an answer.
    Mr. Palmer. No, you don't have an answer.
    Mr. Harper. But you're not willing to allow me to 
patiently----
    Ms. Stanger. May I?
    Mr. Palmer. I'm doing--this is what happens on college 
campuses. I'm not allowing you to speak. Dr.Stanger.
    Ms. Stanger. Let me try to explain what I think Dr.Harper 
was saying. He made a really important point.
    He made a distinction between entertainers and scholars. 
And I think that's precisely the distinction we need to be 
making. Because the most disruptive speakers have been non-
scholars. They've been entertainers. They've been people that 
invite themselves. I'm talking about Milo. I'm talking about 
Richard Sander.
    And if we would just allow, you could solve this very 
simply by saying that if a faculty has invited a speaker to 
campus, or they've cosponsored, a department has cosponsored 
it, it is probably worth their students engaging.
    So I think we can really solve this by just letting faculty 
decide. If you look at all the cases that really upset you, I 
think you'll find that there was no faculty involvement. And 
often, no student group involvement.
    So in some sense, that creates the sense that there's this 
wildly crazy thing going on on our campuses. That simply isn't 
so. So I just wanted to amplify an important point Dr.Harper 
made.
    Mr. Palmer. Well, I just point out----
    Ms. Stanger. But I think you are asking good questions.
    Mr. Palmer. At Smith College, ``crazy'' is a banned word.
    And you've brought up the fact that colleges, it is the 
invitations to entertainers and non-scholars, okay?
    Ms. Stanger. Yeah.
    Mr. Palmer. What about for college commencement speeches 
where they invite non-scholars to give a commencement address? 
And particularly lately, some of the ones that we've heard that 
are very offensive to conservative students and their parents 
who, by the way, pay thousands and thousands of dollars for 
their kids to attend a university.
    I mean, if you're going to make a distinction about who can 
be invited to campus, and it can only be scholars, I think that 
would apply to commencement address as well. Mr. Chairman, I 
yield
    Ms. Stanger. If I may?
    Mr. Harper. May I respond to that?
    As Mr. Raskin noted in his eloquent opening remarks, there 
were only 19 successful disinvitations nationally last year. 
There were more than 4,000 commencements. And hundreds, perhaps 
thousands more, speeches and lectures and entertainment 
activities on college and university campuses.
    Mr. Palmer. So is that acceptable, that 19 people were 
denied their opportunity to speak?
    Mr. Harper. As I said in both my written and oral 
testimony----
    Mr. Palmer. This whole thing about distinguishing between 
scholars and entertainers speaking on college campuses 
apparently doesn't apply to commencement speeches.
    Ms. Stanger. No, listen. If I may, as a peacemaker here, I 
think my rule of saying that if the faculty or the 
administrator has invited the speaker to campus, it is an 
absolute disgrace to cave into protesters and disinvite them.
    So, again, I think the context really matters. If you go 
back and look at the cases that are bothering you, it's usually 
an instance where an institution extended an invitation, an 
official invitation, and somebody caves into that pressure. And 
I think that's wrong, and I agree with you.
    Mr. Palmer. Do you understand----
    Ms. Stanger. But that's why context matters. You----
    Mr. Jordan. Wait, hang on.
    Mr. Palmer. The question was--let me finish, Mr. Chairman. 
My question was not about whether or not it's appropriate to 
invite any of these people.
    The question is, is it appropriate to deny anybody speech? 
Is there a quota that says, Well, you know, only 19?
    Ms. Stanger. As a faculty member, I would like to say that 
faculty should be able to decide what sort of speech is worth 
their students engaging.
    Mr. Jordan. Dr.Stanger, was the incident on your campus 
where you were physically assaulted, was that a faculty-
sanctioned event?
    Ms. Stanger. Absolutely. It was co-sponsored by the 
Department of Political Science, and a student group on campus 
invited Charles Murray in.
    Mr. Jordan. Yep, that's what I thought.
    Ms. Stanger. So my reasoning is consistent.
    Mr. Jordan. No, no, I thought that was the case.
    Ms. Stanger. No, I'm not saying you thought it wasn't.
    Mr. Jordan. I thought I knew the answer to that question 
before I asked it. That's why I asked it.
    The professor is recognized for 5 minutes.
    Mr. Raskin. Mr. Chairman, thank you very much. Well, let me 
start with this:
    Dr.Stanger, I'm a little puzzled about the distinction 
between a faculty invitation and invitation from a student 
group. At least, I never thought of that before. And I just 
wanted to give you the chance to take a second to illuminate 
that.
    I mean, certainly, and I think a lot about the great 
student movements of American history that have been the 
subject of a lots of censorship and suspension and expulsion: 
the civil rights movement, the antiwar movement on campuses.
    Student groups were inviting people to campus that weren't 
sanctioned by the university or by professors. Shouldn't the 
students, if they are a recognized student group, at the very 
least, have the opportunity to invite people to campus? And 
shouldn't they be invited to full First Amendment rights?
    Ms. Stanger. Absolutely. I would agree with you entirely. 
So if I wasn't clear about that. I think that any officially 
recognized student group or faculty member who wants to bring a 
speaker to campus should be respected.
    Mr. Raskin. Okay. Cool. So we've talked today about both 
the heckler's veto. And we saw that, for example, in the case 
where you and Charles Murray got accosted by the student group 
that assaulted you. But there's also a bureaucrats veto. And 
it's maybe not as sexy or electrifying in public, but 
Georgetown University, which is one of our great universities a 
few miles away from here, refuses to recognize the pro-choice 
student group.
    And I just wondered, does everybody on this panel agree 
that the hecklers veto is wrong, that Dr.Stanger faced, but the 
bureaucrats' veto is also wrong of, for example, the pro-choice 
student group at Georgetown. And maybe if I could follow yes 
and no as much as possible, just go down the line.
    Dr.George, do you agree?
    Mr. George. I don't. I think that there is a difference 
between religiously affiliated organizations, especially 
seminaries and non-sectarian universities----
    Mr. Raskin. I'll come back to you. I'm very interested in 
that, but let me just go down the line.
    Dr. Harper.
    Mr. Harper. Yes.
    Mr. Raskin. You agree. Okay.
    Dr. Stanger?
    Ms. Stanger. Yes.
    Mr. Raskin. Dr. Weinstein?
    Mr. Weinstein. I agree. It is problematic.
    Mr. Raskin. Yeah. And Mr. Langhofer?
    Mr. Langhofer. I agree a bureaucratic veto is problematic, 
but I agree with Dr.George that a private university, the First 
Amendment protects the private universities' rights to 
associate----
    Mr. Raskin. Okay. So let me, let me----
    Mr. Langhofer. --just like it protects the individuals' 
rights.
    Mr. Raskin. Okay. So let's come to that because that's a 
critical point here. If I understand Weinstein, Stanger, 
Harper, you guys uphold the right of freedom of expression on 
all campuses, public and private. Is that right?
    Okay. Now on the two ends, we have the gentleman who say--
--
    Ms. Stanger. No, no.
    Mr. Raskin. No? I'm sorry.
    Ms. Stanger. I think it's different for private--you know, 
by law, it is different for private institutions.
    Mr. Raskin. Okay. I'll come back to you then, too
    Ms. Stanger. The First Amendment protects religious 
freedom.
    Mr. Raskin. Dr.George and Mr.Langhofer, you would agree 
that if the University of Virginia said, we are going to not 
allow a pro-life student group to organize on campus, even if 
they have the requisites number of students, and so on, that 
would be unconstitutional?
    Mr. George. Correct.
    Mr. Raskin. Okay. But you're saying it should be matter of 
indifference to the public, to academics, and certainly to 
Congress, if a private university, like Liberty College in 
Virginia or Yale University, discriminates against a pro-choice 
group or a pro-life group; is that right?
    Mr. Langhofer. I'm not saying it's a matter of indifference 
to the public or to any of its constituents. I'm saying----
    Mr. Raskin. As a matter of public policy.
    Mr. Langhofer. No, the First Amendment does not require 
private universities to----
    Mr. Raskin. Yes. That's the State acting requirement. Okay.
    Mr. Langhofer. --association, correct.
    Mr. Raskin. Okay.
    Mr. Langhofer. And so it is not a First Amendment thing. 
Can the university itself, can the public or its constituents 
put pressure on it to change those? Sure, but----
    Mr. Raskin. Okay. Dr.George, where are you on that?
    Do you care if Yale University, which is religiously 
affiliated, or Liberty University, discriminates against groups 
based on their political viewpoint? Or do you think that's 
something, that what matters is the right of the institution as 
the speaker, as opposed to the students who go there?
    Mr. George. Well, I think we're on the same wavelength as 
far as what the Constitution requires because of the State 
action requirements?
    Mr. Raskin. Yes.
    Mr. George. I also strongly believe in truth in 
advertising.
    Yale was once a religiously affiliated university. It had a 
position on fundamental moral and religious----
    Mr. Raskin. Oh, so Yale was covered by the free speech 
dictum, but Liberty University is not? Is that what you're 
saying?
    Mr. George. Yale advertises itself as nonsectarian.
    If Yale said we are a sectarian liberal university, we do 
not tolerate people at this university who do not share our 
convictions on marriage----
    Mr. Raskin. But certainly, all of their preambles and 
forewords talks about balancing liberty of speech with 
inclusion and diversity.
    Mr. George. That's right.
    Mr. Raskin. So it's going to be up to them to decide. But 
this is something that really baffles me, which is why people 
can get so exorcised about what happens at Yale or Wesleyan or 
another private college or university, but not at Liberty 
University, not at Bob Jones University.
    Lots of private universities discriminate based on people 
belonging to the wrong political party, wanting to set up a 
pro-choice group, wanting to set up a gay rights group. And I 
think there's a real problem in your position you need to 
consider.
    Mr. George. I actually think the problem is with your 
position. I think you need to respect the right of religious 
people or people of other sectarian views even if they're not--
--
    Mr. Raskin. Why just religious? Under the First Amendment, 
whether it's religious or secular, they've got a right to 
develop whatever public philosophy they want about education, 
don't they?
    Mr. George. I thought that we were on the same wavelength 
as far as the applicability of the First Amendment to any 
private university, religiously affiliated or otherwise.
    Mr. Raskin. Yes, but your position----
    Mr. George. So we're outside the realm of the First 
Amendment. We need to be talking about what makes for good 
education.
    So if I'm speaking to people at Notre Dame or at Liberty 
University, I'm going to say, Don't allow your university, even 
though it is religiously affiliated, to generate into catechism 
class. You need to make sure that competing points of view are 
heard.
    Mr. Raskin. Well, that's essentially what you're saying to 
Yale and Wesleyan, too, right?
    Mr. George. --by your students. What's that?
    Mr. Raskin. How is it different from what you say to Yale 
or Wesleyan or Oberlin?
    Mr. George. Yeah, the difference is truth in advertising. 
So if you want to say we as----
    Mr. Raskin. But they all claim--the religious schools also 
claim to be supporting the pursuit of truth and diversity. They 
all say the exact same thing when you read----
    Mr. George. They say something that Yale doesn't say.
    Mr. Raskin. Yeah.
    Mr. George. We are a Christian university, and the 
evangelical or Catholic or eastern Orthodox tradition, we guide 
our policies by the Biblical precepts.
    Mr. Raskin. Yes, and Yale says it's a school that's 
interested in the liberal arts and the pursuit of liberal 
education. So they all----
    Mr. George. Don't you see the difference between the two?
    Mr. Raskin. Both of them are expressing their First 
Amendment right to develop their own academic mission.
    Mr. Chairman, thank you for your indulgence.
    Mr. Jordan. But now we're going to move to the fine 
gentleman from Tennessee, Mr. Duncan.
    Mr. Duncan. Well, thank you, Mr. Chairman. Thank you for 
calling this important hearing.
    In the fall of or--I will tell you that this is a 
controversy that's been going on for a very long time. In the 
fall of 1968, late September of 1968, I returned to the campus 
of the University of Tennessee after working here in Washington 
in the Nixon for President campaign. I had served the year 
before. I had written a weekly column. I was the token 
conservative columnist for the UT Daily Beacon. When I got back 
to campus, someone sent anonymously to me the minutes of the 
Issues Committee meeting. The Issues Committee was the 
committee that controlled a huge amount of student activity fee 
money to invite speakers into the campus. They had a list of 
all the speakers they had invited that year. They had invited 
Angela Davis; Tom Hayden, Jane Fonda's husband; Max Lerner; 
Julian Bond. About the most conservative speaker they invited 
was Hubert Humphrey.
    What really upset me, they had a section there that said 
``possible conservative speakers,'' and they put a John Birch 
Society member and a Ku Klux Klan member. That was their idea 
of a conservative.
    So I wrote a column blasting that and listing 15 very 
respectable conservative speakers that they could have invited. 
I gave that to the editor of the Beacon, and he refused to 
print the column because he said my column was on national 
issues and that was a campus issue.
    So I went down to the morning daily newspaper in Knoxville, 
and I told the editor about that. And he said, well, he thought 
that was a column more for the campus, but he said he would 
take a look at it.
    I took it back up there the next day. He ran it on the 
front page of the Knoxville Journal, which was a football 
Saturday, and their circulation went up from about 80,000 to 
about 85,000 that day. The editor of the Beacon got so mad that 
I had done that, that he told me he was taking me off the SGA 
beat. I was majoring in journalism, and that was considered the 
best beat. He was removing me as news editor, and he was 
cutting my column down to once every other week.
    I told him, No, you're not, I said, because I quit. I was 
working for free anyway, so it didn't hurt me to quit.
    I go down--I went down and told the editor of the morning 
paper what they had done. And they hired me to teach--or to--
they hired me as a full-time reporter on the daily newspaper. 
So what the editor meant for bad turned out for me to be a good 
thing.
    But I tell that you because I have a column here by Dennis 
Prager which says, ``Fear of the left, the most powerful 
positive force in America today. Conservatives are keeping 
quiet about their beliefs.'' And he says the dominant force in 
America and many other western countries today is fear of the 
left.
    And so I sometimes--when I'm with conservative students, I 
hear conservative students say all the time that they really 
don't feel they can express their true views because they will 
be--they will receive lower grades from most--from many of 
their professors who are unquestionably liberal. And then I 
hear liberals deny that that's going on in the campuses. But 
when I think back to what happened to me because of that column 
I wrote, I can certainly understand the feeling of many of 
these students.
    But I'd like to hear your opinions, Mr. Langhofer. For 
instance, do you think that Dennis Prager is correct in this 
column that he wrote, that the dominant force in America and 
many other western communities today is fear of the left, or 
that that is a--that conservatives students do feel that they 
have to remain silent sometimes about their views?
    Mr. Langhofer. Well, we definitely have represented a 
number of students and student groups throughout the country, 
you know, West Coast, East Coast, Midwest, that--where students 
have been silenced because of their conservative viewpoints or 
because of their pro-life viewpoints. And I think a great 
example is we represent Young Americans for Freedom in Cal 
State LA when they tried to bring Ben Shapiro to speak at 
campus. And the university threw up all kinds of roadblocks. 
First they canceled the speech and then tried to charge 
security fees and then they basically allowed the professors 
and the students to block access simply because they disagreed 
with the views.
    And that's a--this was a new group. There was only several 
students in the group, and they were trying to bring a 
different viewpoint. And I think that type of reaction where 
you have hundreds of students and faculty blocking the door 
saying that your views aren't welcome, I definitely would say 
that that demonstrates to those conservative students that 
their views aren't welcome there and that they're second-class 
citizens at a university where they're paying their tuition, 
just like everybody else.
    Mr. Duncan. I'm just about out of time, and I have to go 
preside over at the House, but I would be interested.
    Dr. Weinstein, what has been the reaction to what happened 
to you both on campus and off campus? Have any changes been 
made?
    Mr. Weinstein. The campus has doubled down on every foolish 
idea it was pursuing and has gotten itself into very serious 
financial trouble for lack of students, which I should tell you 
I warned my colleagues that if they pursued this false equity 
proposal, that that would be the result. So a rather 
predictable disaster is occurring on campus.
    I do want to push back a little bit, though, on the 
assessment that it is the left, because really, it isn't one 
left. There is an ascendant orthodoxy on the left that is very 
troubling. It is quite broad, but I think not very deep. And 
there's a concentrated mirror image of that on the far right. 
And both of these things are to be feared.
    The problem, though, is when you speak out on a college 
campus from a perspective on the left that does not fit this 
orthodoxy, you are immediately categorized as on the right, 
which makes it look that the left is monolithic and all shares 
this opinion, but it's not the case.
    Mr. Duncan. All right.
    Thank you very much, Mr. Chairman.
    Mr. Jordan. I thank the gentleman.
    The gentleman from North Carolina, Mr. Meadows, is 
recognized.
    Mr. Meadows. Thank you, Mr. Chairman, and thank each one of 
you for your testimony here today. And probably the most 
powerful witness for free speech is not you, the witnesses. 
It's the audience, the young people that are here. And I 
applaud you for truly being here to stand for free speech on 
college campuses. Truly.
    Mr. Langhofer, can you, very shortly and succinctly, define 
what hate speech is?
    Mr. Langhofer. There is no definition. That's the problem. 
It's subjective. It's in the eyes of the beholder.
    Mr. Meadows. Because we've had some of our colleagues talk 
about hate speech.
    So, Dr. George, can you define hate speech? What is hate 
speech?
    Mr. George. It's meant to be speech that dehumanizes 
another person. In other words, attacks the person for some 
aspect of the person that's irrelevant to the conversation 
rather than attacking ideas. Justice Scalia once put it, I 
think, very well. He said, ``I don't attack people. I attack 
ideas.''
    Mr. Meadows. Okay. So if we--so, Dr. Harper, you acted like 
you wanted to jump in there. Go ahead.
    Mr. Harper. Sure.
    As I indicated in my written testimony, the USC Race and 
Equity Center does campus climate studies all across the 
country. At every place we've been but one, black students 
there have been called ``niggers.'' That would be hate speech.
    Mr. Meadows. All right. So it's going after the individual.
    So having a difference of opinion is not hate speech?
    Mr. Harper. No.
    Mr. Meadows. All right. So when groups are defined as hate 
speech groups for having a difference of opinion, you would 
say, Dr. Harper, that that's--that wouldn't be accurate.
    Mr. Harper. It depends on what the opinion is and the 
language that is used to----
    Mr. Meadows. Well, if you and I have difference of 
opinion----
    Mr. Harper. That would not be hate speech?
    Mr. Meadows. For example, I do have a difference of 
opinion. I don't think your students own the campus on which 
they go to school, because I think that the vast majority of 
them have taxpayer dollars that fund that, that, quite frankly, 
either are borrowed or granted or paid back at some point, so I 
don't think that they own it. But we have a difference of 
opinion, and I will respect your opinion there.
    So do you believe that it's okay on a public campus to 
limit where free speech can take place?
    Mr. Harper. I do not. To be sure, as I said in both my oral 
and written testimony, I am a proponent of free speech and----
    Mr. Meadows. I got 5 minutes. So I'm going to let you be 
free with your speech, but limited on your speech. How about 
that?
    All right. So as we look at that--so you would say, Dr. 
Harper, it is not okay to have free speech zones?
    Mr. Harper. I am not a proponent of free speech zones.
    Mr. Meadows. Okay. So one of the interesting--you know, 
this--this particular--demonstrates the problem that we have on 
some college campuses. So here we have a free speech zone 
that's about the size of a parking space.
    Mr. Harper. I think that's ridiculous.
    Mr. Meadows. Okay. So what size would be okay?
    Mr. Harper. I actually think that the entire campus ought 
to be a place that is a marketplace for the contestation of 
ideas. And for----
    Mr. Meadows. God bless you. I agree. I fully agree.
    And so if we can go there, and we know that we have this 
issue, how do you reconcile some of the limitations on free 
speech that we've seen on college campuses, and maybe even your 
college campus, as it relates to those that have a different 
opinion on what they should value?
    Now, I'm not talking about the kind of controversial speech 
that you and I both find abhorrent. I mean, it just--truly, the 
example you gave is certainly something that we can all 
condemn. But let's take it into a different situation.
    Is it okay, in the United States of America, to espouse 
communism?
    Mr. Harper. At a university, it is the responsibility of 
the educators, the faculty members who work there, to 
complicate students' ideas and to make space for students to 
espouse communism----
    Mr. Meadows. But I'm taking it out of a racial context, 
because I think the answer would be yes.
    I mean--Dr. George.
    Mr. George. Yes, Representative Meadows. I want to say that 
I am not favorable to communism, to say the least.
    Mr. Meadows. Just for the record.
    Mr. George. But I teach the works of Marx. I teach the 
works of Gramsci. And when I present my students with Marxist 
writers, I try to present them in their most powerful, 
positive, attractive sense, because I want students not to be 
able to shoot down a straw man. I want them to understand why 
these theories, which I find reprehensible, have real appeal to 
serious, intelligent people, and, in some places, still do.
    I think it's our job--I agree with Dr. Harper. It's our job 
to make sure that students hear the message to be said for all 
points of view, including those that we find reprehensible and, 
even in the case of Marxism, deadly.
    Mr. Meadows. Okay. And I'll close--the chairman's been 
gracious allowing me to go over.
    Here's what I would ask each one of you to give this 
committee. I need, on a spectrum, when does speech become hate 
speech and should be limited? You know, we need to have a 
definition, because you know what, Mr. Langhofer? I happen to 
know that the Southern Poverty Law Center would say that you 
espouse hate speech. And I disagree with that. I fundamentally 
disagree with that. And yet, at the same time, what we have to 
do is we have to understand that free speech must be protected, 
even at times when it is speech that we do not agree with, like 
communism.
    I'll yield back.
    Mr. Jordan. I appreciate the gentleman's question and the 
ask of the witnesses.
    The gentlelady--sticking with North Carolina, the 
gentlelady from North Carolina is recognized for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. And I want to thank our 
witnesses for being here today. And I've invited some students 
in from Appalachian State University to hear the comments 
today.
    Dr. George, in your testimony, you call our attention to 
the threat posed to the integrity of our colleges and 
universities by those who refuse to entertain or listen to 
arguments that challenge their opinions. But you also share the 
good news that the situation at Princeton is not all bad.
    Could you elaborate on why that is? What particular 
policies are in place or actions has Princeton taken that 
encourage intellectual diversity on campus? And could other 
institutions of higher education replicate this approach?
    Mr. George. Well, thank you very much, Congresswoman.
    Let me just mention four things very quickly: First, we 
have a university administration at Princeton led by 
Christopher Eisgruber, who is, himself, a First Amendment 
scholar that is very sensitive to issues of free speech, 
supportive of issues of--supportive of free speech, and also 
concerned about the problem of a lack of viewpoint diversity. 
Our administration wants there to be, on the faculty, as well 
as in the student body, a range of perspectives representing--
represented so people will hear ideas from people who actually 
espouse those ideas.
    Secondly, we were the second university in the country, 
after the University of Chicago, to adopt of University of 
Chicago's excellent free speech principles. These were the 
report of the Jeffrey Stone committee, which Mr. Raskin, I'm 
sure, will be familiar with.
    Third, the university was completely behind Cornel West and 
myself. And enthusiastically, when we proposed to teach 
together, they celebrated--they celebrated, and promoted the 
idea of two outspoken people representing competing points of 
view getting into the classroom and teaching together. And I 
know Cornel and I both really appreciated the support the 
university gave.
    And then fourth, in the year 2000, we found that the James 
Madison program in American Ideals and Institutions, of which I 
have the honor to be the director, and it's part of the mission 
of the--of the program to ensure that there is a wide variety 
of viewpoints represented.
    A fundamental problem we haven't talked about today is the 
lack of voices on campus, especially in the faculty ranks or 
visiting speakers who represent views that are contrary to 
campus orthodoxies. Liberty University should be doing this. 
Notre Dame and Georgetown should be doing it too. But all 
universities should be doing it. Princeton needs to do more of 
it. Certainly Yale needs to do it.
    We talk about there were 5,000--I think that was the right 
figure, roughly--5,000 commencement speakers. How many of them 
were conservatives? How many conservatives were given honorary 
degrees, which is a way that universities hold up achievement 
to be modelled for their students? It's one thing to not 
disinvite people, that's great. But if people representing 
competing views against the dominant views are not being 
invited in the first place, I'm not going to celebrate too 
heavily that we're not disinviting people.
    Ms. Foxx. Thank you, Dr. George.
    Mr. Langhofer, in your testimony, you describe how public 
universities across the country inappropriately limit student 
speech on campus. And my colleague from North Carolina showed 
that chart about constricting speech zones that limit free 
speech activities to a small area of campus.
    As you pointed out, there have been numerous incidents 
where students have been wrongfully prevented from sharing 
their viewpoints.
    Can you expand on why this type of policy is detrimental to 
the free exchange of ideas on campus? Can you give us some 
examples that--of universities that have remedied their 
unconstitutional speech zones and how they did so?
    Mr. Langhofer. Sure.
    I think, you know, all the speakers today have demonstrated 
why this is so harmful to tell students that they only have to 
speak in one area. First of all, it tells them that their 
public areas, the areas where they live, their views--they 
cannot speak without the government giving them permission. 
That's the wrong message that we should be sending to our 
students. Our students should know that we live in a free 
society, and that they're free to share their views, and that 
others are free to refute those views if they disagree with it. 
So that's a bad message.
    But it's also a wrong message because the government almost 
always uses that with discretion to say your view shouldn't be 
allowed. And so at Kennesaw State, where we--we also have 
another lawsuit against Kennesaw State regarding speech zones 
because they allowed certain people to speak outside the speech 
zone, and they put other people inside the speech zone. That's 
what happens when you give unbridled discretion to university 
administrators. So I think it's a problem because students are 
being taught that if they want to exercise their rights, they 
have to get permission first. And that's the wrong message that 
we should be sending to our students.
    Ms. Foxx. Thank you, Mr. Chairman.
    I yield back.
    Mr. Jordan. I thank the gentlelady.
    The gentleman from Michigan is recognized for 5 minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    Dr. George, I'll start with you, please. And you quoted 
Justice Scalia about hate speech, and I remember the section. 
But he also talks about the fact that hate speech is not 
unconstitutional; that, in fact, it is protected.
    Mr. George. Yes. Yeah. That is right.
    One of the things I find as I go around the country as a 
common law person, I share that with Mr. Raskin, is that many 
students, very well-educated students, high-achieving students, 
believe that there is an exception to the First Amendment 
guarantee of free speech for hate speech. And, of course, 
that's not true.
    Mr. Mitchell. Well, and I'm not an advocate of hate speech. 
Don't get me wrong. The reality is is that--and, Dr. Harper, 
join us here, because what ultimately addressed some of the 
hate speech you referenced--I'll leave out the word, but what 
ultimately addressed the fact that some terminology wasn't 
acceptable? It was society, was it not? It wasn't a bureaucrat, 
it wasn't a college administrator. What addressed that wrong?
    Mr. Harper. Absolutely.
    It was society and conversation, right, which is why I'm a 
proponent of conversation about these things on campus.
    Mr. Mitchell. Okay. But hang in here with me.
    So the reality is, is rather than have institutions or 
groups of students yell down something they disagree with, even 
if they're saying things that are vile, should it not be 
society as a whole, not segments of society that say You don't 
get to speak here? Or, in fact, cause significant disruption 
and potential violence at the cost of having a speaker 
supersedes--they stop speech? Is that not wrong?
    Mr. Harper. I mean, if we waited for society, I'm afraid 
that we will not get the kind of justice and humanity that 
students deserve on campus.
    Mr. Mitchell. So it's not society. We've got some group of 
higher people that are determining what's right for everybody. 
Is that what you're suggesting?
    Mr. Harper. I'm suggesting that it is the responsibility of 
college presidents and university faculty members to create the 
conditions that allow students to understand why what is being 
said is problematic, and to complicate those ideas.
    Mr. Mitchell. Let me share with you a story about college 
professors and administrators. Your patience, Mr. Chair.
    1976, I was a student at Michigan State University. A 
college professor that disagreed with me, I disagreed with her 
position on pro-life versus pro-choice. Catholic. All of a 
sudden, my essay grades were considerably poorer, significantly 
poorer. In fact, I tutored for the college because my grades 
were so good. I appealed the grade.
    She was wrong by over 2 1/2 grades. They changed my grade, 
and my tests subsequent to that were subject to review for the 
college after that.
    She left that position. She became the dean of the honors 
college. You know what happened to me? I was called for review 
of whether or not I was entitled to honor status. And they 
withdrew my honors status. Why? Because I wouldn't take 
anthropology of speech.
    Now, that was 1978. So when you say college administrators 
should make a determination, they are just as biased as society 
is. What? Because they have more education, somehow they are 
theoretically better people?
    Mr. Harper. Mr. Mitchell, what you described in 1978 is a 
version of what I hear in 2018. The difference is, I hear it 
most often from students of color who suggest that there is not 
sufficient ideological diversity in the courses that they take. 
The overwhelming majority of the authors that are assigned to 
them----
    Mr. Mitchell. I have so much time. I have so much time.
    The reality is we're not talking about diversity. We're 
talking about punitive action. We're not talking about--we're 
talking about--Dr. Stanger, let me go to you real quickly, 
because you said, Well, if scholars are inviting guests, then 
they should have protection, and if they're--who--and if 
they're not scholars, they shouldn't?
    Ms. Stanger. Just a correction. I said members of the 
faculty or a recognized student group, which covers just about 
everybody on campus.
    Mr. Mitchell. I'm sorry. I took it as scholars, but maybe I 
misunderstood what you were saying.
    Ms. Stanger. Yeah.
    I think we have a little more weight than the students, but 
that's okay if we----
    Mr. Mitchell. Dr. George, real quickly, in the few seconds 
I have left here.
    You made reference in talking about protests and people 
protesting someone else's speech. You said something important 
there. You said ``respectful.'' Respectful disagreement.
    Is heckling down a speaker, is threatening violence, does 
that meet your definition of respectful?
    Mr. George. No, that's not. It's disrespectful. And it's an 
unwillingness to engage. And that mean it's an unwillingness to 
learn.
    Mr. Mitchell. One more quick question for you, Dr. Harper.
    You made a comment that somehow you minimized 19 
disinvitations of speakers last academic year.
    Is it acceptable to you to have 19 decisions on academic 
campuses that they won't house a minority student with a 
nonminority student? Would that be acceptable to you? Would 
that be an acceptable standard?
    Mr. Harper. As I suggested in my written and oral 
testimony, university administrators reserve the right to 
withdraw invitations to any speaker, including me.
    Mr. Mitchell. That's not answering my question.
    If a university administrator decides that they won't house 
a student of color, they decide they're not going to house them 
with Caucasian students. The University of Michigan makes the 
decision.
    Is that acceptable 19 times at a university?
    Mr. Harper. It's not a question pertaining to freedom of 
speech on college campuses.
    Mr. Mitchell. It's a decision by university campuses. A 
violation of constitutional rights, right?
    Mr. Harper. I don't see how that is relevant to this 
particular conversation.
    Mr. Mitchell. I'm sure you don't. But it is relevant when 
19 decisions to violate someone's constitutional rights for 
free speech----
    Mr. Harper. It is not a constitutional violation when you 
are a guest who has entered into a contractual agreement with 
an institution that makes clear in the contract that they 
reserve the right to rescind or withdraw the invitation.
    Mr. Mitchell. One more comment, Mr. Chair.
    The university is not the final arbiter, because it's the 
taxpayers. It's the people that are paying to have that 
university there in contrast to the comments you made earlier 
about it being their university, it's the public's university, 
or it's the private university, the endowment of people paying 
for it. With all due respect, they aren't the decision maker of 
that.
    Mr. Harper. I did not suggest in my testimony that they get 
the final decision. But they absolutely get a say. And they get 
to say that they don't want this person on their campus. They 
do get to protest. They, too, have freedom of speech.
    Mr. Mitchell. Well, there's a line in the protest, I think 
we can agree, that's been crossed more than once.
    Thank you. I yield back.
    Mr. Jordan. I thank the gentleman.
    Mr. Langhofer, how close can a safe space be to a free 
speech zone on a college campus?
    Mr. Langhofer. I think--I don't know that I've ever 
answered that question.
    Mr. Jordan. Can they be the same exact location? So could 
you take what Mr.--Congressman Meadows had up there, I think it 
was a free speech zone. Could you overlay a safe space on that?
    Could that actually work?
    Mr. Langhofer. I think you could.
    Mr. Jordan. Or is it like--I remember--I think they're 
called Venn diagrams. You know what I'm talking about? Like 
some--like a circle here and a circle there, but there's a 
little bit of overlap. Venn diagram.
    Okay. So could it be a Venn diagram, Mr. Langhofer? Can 
that happen on a college campus?
    Mr. Langhofer. I think that you could overlap a safe space 
with a speech zone. But, unfortunately, you know, speech 
zones--obviously, we believe that they're unconstitutional 
everywhere, and public universities.
    Mr. Jordan. Dr. George, can you exercise free speech in a 
safe space?
    Mr. George. I don't even know what those things mean.
    Mr. Jordan. And isn't that the point? Isn't that the point?
    Mr. George. Yeah. I mean, what we need to get the focus on 
is learning, learning, learning.
    Mr. Jordan. Yes.
    Mr. George. What--the reason we need free speech on campus 
is that--so the mission of the college or university can be 
prosecuted. Students can learn. Scholars can advance the cause 
of truth-seeking. And when we shut each other down, when we 
restrict speech, when we don't listen to a particular point of 
view, when all the speakers are on one side or the other, it 
doesn't matter whether it's the left or the right, you know 
what is lost is learning, knowledge, truth-seeking. That's what 
it's all about. That's what we keep our focus on.
    Mr. Jordan. Exactly.
    Dr. Weinstein, what happened in your classroom, which I've 
seen videos of, was that--was your classroom that day a safe 
space or a free speech zone or neither?
    Mr. Weinstein. Thank you for asking me that question.
    Free--a safe space----
    Mr. Jordan. It didn't look like it was safe to me.
    Mr. Weinstein. Well, I believe in something that could be 
called a safe space. But what ``safe space'' means to me as an 
educator is a space enough to take risks, which is roughly the 
opposite meaning of what is being invoked on college campuses.
    The answer to your question is that a free speech zone 
cannot coexist with a safe space, because a safe space, by 
definition, according to this orthodoxy, is a place where you 
are free from being offended. So it cannot--it is mutually 
exclusive.
    But if you'd allow me to, I feel that there's----
    Mr. Jordan. In a safe space, could you say this sentence? 
Could you say ``Donald Trump is President of the United 
States''?
    Could you say that in a safe space on college campuses 
today?
    Mr. Weinstein. Well, it depends which version of safe space 
you mean. If you mean a safe space the way it is used in common 
parlance on college campuses today, then the question of 
whether or not you can say it is contingent on whether or not 
somebody will be offended by that observation.
    Mr. Jordan. Now, think about that. You can't even state a 
fact, a fact. Provable, right? I saw his tweet this morning. 
It's provable. He's the President, right?
    Mr. Weinstein. Mr. Chairman----
    Mr. Jordan. You cannot do that. This shows the absurdity of 
what is going on on campuses, and you have lived it in a 
physical way. Dr. Stanger has lived it in a physical way. This 
is what is scary.
    Dr. Stanger is raising her hand. Mr. Weinstein, you have 
the floor, so you'd have to yield time to her.
    Ms. Stanger. You don't have to.
    Mr. Weinstein. Okay. I think this is important enough to 
warrant a minute or two.
    We are continuing in this hearing to run up against the 
bluntness of the tool that we have at our disposal for 
discussing the issue at hand. So there is an importance to what 
takes place on a college campus. Free expression is a key 
feature of what takes place on college campuses that makes 
civilization function.
    But the application of the First Amendment to that free 
expression is almost arbitrary. Does it matter more that 
something takes place at Evergreen, which happens to be public, 
than if it takes place at Harvard, which happens to be private? 
Do those distinctions even make any sense when, fully, 80 
percent of the funding that drives Evergreen is private tuition 
money and--I don't know what fraction, but a very large 
fraction of what drives Harvard is NIH and NSF money?
    So these distinctions are arbitrary. And what we should be 
protecting is the ability to exchange ideas in a way that 
actually allows education.
    It is also true that when people self-censor because 
they're afraid of stigma, they may never get around to the 
place where somebody blocks their speech. And so, there may be 
no technical violation, but, nonetheless, the effect is exactly 
the same.
    There is also a problem in the sense that the conflict is 
really between members of the audience. One section of the 
audience is deciding what other members of the audience can 
listen to. The person's speech who is inhibited is almost 
beside the point. It's a question of whether you can choose 
what you want to entertain as a concept. And then when this 
jumps the fence and leaves the college campuses and moves into 
the outer world, we're going to run into an even bigger problem 
where the tech sector is now the de facto governance apparatus 
for the new public square. And it's private. The First 
Amendment doesn't apply.
    Mr. Jordan. Dr. Harper, are bias response team members 
identifiable on campus?
    Mr. Harper. They are. Their names are usually made public.
    Mr. Jordan. Well, no. Do they have a badge? Do they have a 
special hat they wear, or what?
    Mr. Harper. No, they don't wear badges or hats, but they 
are publicly----
    Mr. Jordan. Bias response team members on a university 
campus, are they experts in the First Amendment?
    Mr. Harper. They usually are not. They are citizens of the 
community who----
    Mr. Jordan. Does that concern you?
    Mr. Harper. --very much exercise and look into and carry 
out due process.
    Mr. Jordan. The people who are policing free speech on 
college campuses may not be identifiable and they're not 
experts on the First Amendment, but they're allowed to police 
free speech on--they're allowed to police speech on a college 
campus?
    Mr. Harper. That's not the role of a bias response team. I 
made clear in my written testimony that bias response teams 
ensure due process instead of administrators relying on 
anecdotes or very little information to punish people who have 
been accused of wrongdoing. They, instead, empower a team of 
investigators to collect evidence.
    It's no different than a corporation having a group of 
people look into claims of sexual harassment or racial----
    Mr. Jordan. Oh, it's a lot different. It's a lot different. 
Corporations aren't government institutions. We're talking 
about a lot of government--it's a lot different.
    But let me ask one another question, because I'm over time, 
and I know the gentlelady from New York is itching to go here.
    So, Dr. Harper, is Ben Shapiro a scholar or entertainer?
    Mr. Harper. I've never met Ben Shapiro.
    Mr. Jordan. No. I'm asking. Is he a scholar or entertainer?
    You made a distinction in your opening statement about 
entertainers shouldn't necessarily have the same kind of 
privileges on college campuses----
    Mr. Harper. I did not say that.
    Mr. Jordan. And I'm asking.
    Mr. Harper. You heard that, but I never said that.
    Mr. Jordan. Okay. Well, then, just go to my question, then. 
I think you did, but we won't don't debate that now.
    Answer the question. Is Ben Shapiro a scholar or 
entertainer?
    Mr. Harper. I don't know Ben Shapiro.
    Mr. Jordan. You don't know Ben Shapiro, the guy that's had 
the heckler's veto used against him----
    Mr. Harper. I don't know him personally.
    Mr. Jordan. --more campuses last year than any other 
speaker, and you don't know him?
    Mr. Harper. I don't know him personally.
    Mr. Jordan. Really?
    Mr. Harper. I do not know him personally.
    Mr. Jordan. Really?
    Mr. Harper. I've never met Ben Shapiro.
    Mr. Jordan. Mr. Langhofer, let--I've--whether you met him 
or not, I understand you know of Ben Shapiro.
    Mr. Langhofer, do you know who Ben Shapiro is?
    Mr. Langhofer. I do.
    Mr. Jordan. Yeah.
    Dr. Weinstein, do you know?
    Mr. Weinstein. He's a friend.
    Mr. Jordan. Yeah.
    Dr. Stanger, do you know?
    Ms. Stanger. I know the name, but I've never read him.
    Mr. Jordan. Okay. 
    Ms. Stanger. So I couldn't pass judgement.
    Mr. Jordan. Okay. Dr. George, do you know who Ben Shapiro 
is?
    Mr. George. I know the name, and I've read some of his 
writings, but I don't know him personally.
    Mr. Harper. Yeah. That's what I said.
    Mr. Jordan. Okay. Well, it wasn't quite what you said, but 
we'll let it go.
    The gentlelady from New York is recognized.
    Ms. Stefanik. Thank you, Mr. Chairman. Thank you to all of 
our panelists who are here today discussing this important 
topic.
    I'm the first person in my immediate family to graduate 
from college, and I can personally speak to the importance of 
being exposed to diverse viewpoints on campus. Intellectual 
rigor, challenging and respectful discourse, and the experience 
of grappling with complex issues was integral to my personal 
college experience. Higher ed institutions not only open 
students up to new ideas, but also play a pivotal role in 
informing the national discourse and protecting the exercise of 
free thought, speech, and assembly. And I believe that measures 
that deprive students of their ability to disagree erodes the 
quality of the many important debates that should be happening 
on our college campuses right now. And there are many examples 
of these restrictive policies on campuses across the country.
    Many of you have mentioned the example at the University of 
Michigan regarding perceived bias. Another problematic policy 
that I'm familiar with, because it's happening at my alma 
mater, at Harvard University, they recently decided to penalize 
students who join single sex organizations.
    I'm a graduate of an all-girls school K-12, and that was 
formative in me feeling the confidence of running for office. 
So I do see the value of single sex organizations.
    I believe both of these examples, the University of 
Michigan and Harvard, illustrate poor administrative decision-
making that has ultimately harmed students and established an 
environment that discourages debate, the free exchange of 
ideas, and the freedom of assembly.
    We are working on higher ed reauthorization. And I think 
it's important to keep in mind that both public and private 
institutions rely significantly on Federal funds.
    How can we ensure that our constitutional liberties of 
young students attending these higher ed institutions are 
protected, because it's the Federal dollar that is underpinning 
the support, whether it's a Harvard, a private institution, or 
whether it's a SUNY, a public institution in my State.
    I'll start with you.
    Mr. Langhofer. I appreciate that. That's an important 
topic. As we talked about a little bit earlier, the First 
Amendment--we've been talking primarily about students and how 
it protects the students' right to speak. But the fact is, the 
First Amendment also protects private universities and their 
right to carry out the education in the way that they choose to 
carry it out.
    And I think Professor George pointed it out most 
importantly. The problem we have is, in universities, when they 
advertise themselves as some--as an institution seeking truth, 
but they're actually promoting social justice over the truth-
seeking. And so, when we're talking about Congress allocating 
dollars, it absolutely has the right to say, public 
universities, if you're taking our tax dollars, you are bound 
by the First Amendment. You must have policies which are 
consistent with the First Amendment.
    But when we're talking about private universities, they 
also have the right to carry out their education, maybe if--as 
it's dictated by their religious beliefs. As long as they 
advertise themselves as that and they hold themselves out as 
that, then they're not violating the First Amendment. And I 
don't think Congress has same duty to oversee that because, 
it's not--it's not a public institution.
    Ms. Stefanik. But they're still relying on significant 
Federal funds.
    Take the example of Harvard, which you talked about, Dr. 
Longhofer, whether it's DOD funds, whether it's NIH funds, or 
whether it's program funding. There are so many Federal dollars 
that underpin the way Harvard functions and their budget on an 
annual basis.
    Mr. Langhofer. And I think I--the example that you pointed 
out earlier about single sex institutions, there are some 
people who would believe that that's a violation of law, that 
we shouldn't be doing that. And so, they might say that the 
single sex institutions shouldn't be getting a--any Federal 
dollars. But there are----
    Ms. Stefanik. So those single sex institutions are actually 
not affiliated with Harvard. They are completely outside 
organizations. And the fact that the university can penalize 
students because they join an outside organization, zero 
affiliation with Harvard, they're not allowed to be sports 
captains, they're not allowed to be considered for fellowships. 
And I think that is a significant overstep of the university's 
role.
    I wanted to give other panelists an opportunity to respond.
    Dr. Weinstein.
    Mr. Weinstein. Well, the first thing to say is I'm not a 
legal expert, but I would certainly support the idea that 
leverage generated by the funding that is given by the Federal 
Government would--morally--it would morally be justified to use 
that to make sure that college campuses protect the free 
expression.
    But I would also point out that this is not just a matter 
of abstract ideas presented by speakers on campus. This is now 
extending into the classroom, and it's a question of what one 
can properly teach in a biology class, for example, which may 
well not be politically correct, but is, nonetheless, necessary 
for students to understand the organism that they're studying.
    So ultimately, this is going to manifest in our 
competitiveness as a Nation. If we decide that there are 
certain things that are true in science that can't be stated in 
a college classroom, then our students will be undereducated 
relative to any Nation that can solve that problem. So this is 
really a critical issue, and the use of those funds to keep the 
campus square open is entirely valid, in my opinion.
    Ms. Stefanik. Dr. Stanger.
    I hope I get some flexibility on the time.
    Thank you.
    Ms. Stanger. Just very quickly.
    I'd like to take us back to learning, and perhaps paint a 
rosier picture than what's emerging here, because in my 
classroom, nobody is self-censoring, because I make it 
absolutely clear that it's of the utmost importance for 
learning that people be able to speak freely and make mistakes 
and maybe even offend someone.
    So I have the ground rule of, I just say it to them at the 
beginning. We're going to--I don't want you to self-censor. 
Please speak. If you offend someone, I'm going to ask you to 
apologize. If you don't understand why, the person's going to 
explain to you. And then we're going to shake hands and move 
on.
    So there is zero daylight between my view of what you allow 
in a classroom and Professor George's. So maybe that's a 
barometer one could use. You can ask students. You can ask 
faculty. Are you self-censoring because of outside bodies? And 
if there's a lot of self-censorship, I think that's saying 
something very negative about the learning environment.
    Ms. Stefanik. Dr. Harper.
    Mr. Harper. This sounds just like my classroom. It might 
surprise some people here that I actually invite ideological 
diversity, the contestation of ideas, because I am a firm 
believer that that is what a university should be. It should 
not be a place where everyone is comfortable.
    What I think is the necessary complication here, though, is 
that when people of color say that we want our voices also 
included in the curriculum, and that we have a high expectation 
that you are going to engage perspectives beyond those that you 
were taught through your Eurocentric prism of the curriculum, 
that that's where professors push back and don't want to create 
inclusive environments, right? Like I think that we--I think 
there's an opportunity and a responsibility for both things to 
occur.
    Ms. Stefanik. Dr. George.
    Mr. George. Yes. I was very glad when Professor In-Exile 
Weinstein raised the issue of self-censorship, because it's a 
very, very serious problem on our college campuses. And kudos 
to those professors like Allison Stanger and Dr. Harper who 
make it a point of encouraging students to express what's 
really on their mind and to explore lines of argument, whether 
or not they themselves happen to agree with it, that push back 
against whatever the orthodoxy is in the room. It's really 
critical to the learning process.
    So I think Congress and State legislatures can do a service 
by keeping a spotlight on the problem. Have students come in to 
talk about their experiences, experiences that are too often 
like what Mr. Mitchell experienced back in 1978. Put university 
presidents on the spot. Ask them what they're doing about the 
problem of self-censorship on campus.
    And if they deny that there is self-censorship, or there is 
a problem, give them the kind of grilling that I've seen going 
on here today, or even more intense a grilling. Make them fess 
up to the problems so that we can all acknowledge it and start 
to do something about it. It is a very serious problem.
    And I'll just conclude by saying let's also take note that 
the problem is even more intense when it comes to women and 
people of color who dissent from views that people think they 
are supposed to hold because of their sex or because of their 
race or because of their ethnicity. We should never accept 
that. You are not required to be progressive because you're 
black, or female, or conservative because you're of European 
ancestry. We need to banish those ideas. The--we need to 
encourage, especially our female students and our students of 
color, to speak their minds, even when they're going to 
surprise people, because, Gee, we didn't think people of your 
sex or people of your race thought like that.
    Ms. Stefanik. I understand that. I mean, I am a millennial 
woman, New Yorker, who is a Republican, so I understand that 
very much.
    I want to point out one positive example. I do think we 
should praise institutions that are handling this correctly. 
The University of Chicago, the letter from the dean of students 
to the class of 2020 I think highlights what our higher ed 
institutions should be doing when it comes to respecting 
intellectual diversity, and really encouraging young people to 
challenge their viewpoints and pursue lifelong learning.
    Thank you for the flexibility.
    Mr. Jordan. Let the record show that the gentlelady from 
New York got 5 additional minutes. And she's not on the 
committee, but we appreciate that. And it was a good exchange.
    Thank you.
    Now, the professor, the second professor, the gentleman 
from Virginia is recognized for 5, give or take a minute or 
two, minutes.
    Mr. Brat. I'm going to take two. Good.
    Thank you all. Students, you got your pencils ready to roll 
here? Get ready to take a little note here.
    I--first of all, I applaud--I love the comments here, and 
it's all great, and these professors are great. And me and 
Jamie up there, the Democrat on the other side, we had an 
exchange at American University. We go back and forth. And 
you're all charming and it's all great.
    But you haven't discussed the empirics of the faculty as a 
matter--and the basic volume of the ideas we're talking about. 
It would great if we pursued truth. But I think, as all of you 
know, truth has been under attack in every brown bag philosophy 
lunch at Yale, Harvard, Princeton, whatever, for about 20, 30 
years, right? Logical positivism, blah, blah, blah.
    So I'll just give the students a little mini course here, 
right? So I taught religion and ethics and justice and 
economics for 20 years. And we had a scholar at Virginia, Pat 
Werhane. She wrote a book on business ethics, so this would get 
Dr. Harper in here in the business section here.
    Business ethics, and in that book, and this has to do 
flyover country right now. You got the coastal elites, right? 
Then you got all the normal people in the middle, or something 
like that. That's a joke. I'm on tape.
    And so in that ethics book, which is fairly representative 
of every business ethics book across the country, they have 
ethics. And the three schools of thought you will guaranteed 
learn in ethics is Aristotle. I heard a little flourishing 
language out of Stanger here, so she's probably in that camp. I 
shouldn't have led my witness.
    And then--so that virtue theories, Aristotle and all that 
kind of stuff, right? And then you got Conti in ethics, the 
great German ethicist. And you're all Contians whether you know 
it or not. And then you got the utilitarians, et cetera, Mill 
and Bentham and all this kind of thing, right?
    So I go around to all my rotary clubs. And everybody--I 
give boring ethics talks and ask everybody. I say, How many of 
you live out the Aristotelian virtue ethics? Nobody. How many 
of you young people are Contians? No.
    So you all must be Utilitarians. You all follow Mill, 
Bentham. No.
    So these are the three schools of thought we teach in 
ethics. We don't teach religion anymore at all. Philosophy as a 
system of thought is gone. And the ethics is kind of--is all we 
got left hanging. So now raise your hand if you can answer this 
question. How many of you are either Christian or Jewish or 
Muslim or Confucius or Buddist or--et cetera, whatever I 
didn't--raise your hand if you're one of them.
    Oh. How many of you base your life and ethics on a little 
of that. Yeah, that's what I thought.
    So that's what you call in another setting a monopoly or 
something, right? I mean, so what I'm getting at is the bias on 
faculties, and the little hidden secret that I--members of this 
panel don't know, is guess who hires faculty? Faculty in the 
department.
    So if you already have a bunch of '60s liberals, who I 
like, right, they used to be classical liberals. I'm a 
classical liberal, right? You know, James Madison, Adam Smith, 
all these radical thinkers. These are considered radicals these 
days, right?
    So I'm a classic--but now the left is in full charge, and 
they're hiring, guess--what could go wrong if you have the left 
hiring the left, and that's what's going on.
    And so, Dr. Stanger, I appreciate your aspiration that we 
move--I don't think it is right either, theoretically, to go 
50/50. Our goal shouldn't be, like, well, let's have 50 percent 
conservative thoughts, and 50 percent liberal, right?
    Ms. Stanger. Right.
    Mr. Brat. But what's missing--and, you know, Dr. Harper is 
kind of getting at this is the diversity and all this kind of 
thing. Well, I mean, you had the Greeks and the Romans and 
Augustine of Hippos from Northern Africa. I mean, it's not like 
the liberal arts canon was a bunch of Europeans altogether, 
right?
    And so my challenge for the panel here is, you all talked 
about truth. But what is truth, right? You all talk about 
rationality. Whose rationality, right?
    And, students, you might want to take a note on that. 
Alasdair MacIntyre. You got a brief history of that? You all 
know this guy? Good. I see some nods. Very good.
    Right? He's got books. Whose justice? Which rationality? 
That is the question, right? And so I'm entirely--Dr. Stanger, 
I'm glad you want to get optimistic. I'm more like Calvin and 
Hobbes here.
    But we need to get out of this monopoly. And if you've got 
any ideas, that's what we're struggling with. And if you look 
at political donations and all this kind--the evidence is 
clearly. I can make the case. I'm not going to go there, 
because it'll just get all the tempers up.
    But we got to get back to truth. What is truth, what is 
justice. And it should be embedded in a body of knowledge, 
right? Not just faculty people who are charming fellows and 
women who can dazzle students who are 18 years old, but there 
should be a body of knowledge.
    And so I'll just--Dr. Stanger and then Dr. George, I'll go 
to.
    Ms. Stanger. I completely agree with you. And I'm going to 
give you an Aristotelian answer.
    Mr. Brat. Oh, I figured. That's good. And I'm with you on 
that. That's good.
    Ms. Stanger. You left out one word, excellence. I have a 
brighter story for you from Middlebury College political 
science department. It may surprise you----
    Mr. Brat. Good.
    Ms. Stanger. --that by using the standard of excellence in 
hiring the smartest people, regardless of what they look like, 
what their religion might be, we wound up with one of the most 
diverse departments on the faculty. And I think it's unfair 
to--and I understand why you have that perception. I just don't 
think hiring is taking place in those ways, at least in my 
department.
    Now, we may hear of some other horror stories, but that's 
my perspective. But excellence. Keep that in mind.
    Mr. Brat. Well, I'm a conservative Calvinist economist. And 
I grant you, as I traveled around the country and gave papers 
and whatever, I wasn't in the majority. So it might be 
shocking.
    Dr. George, any color commentary?
    Mr. George. Yes. Again, we have to acknowledge the problem 
before we can do anything about the problem. And, frankly, the 
imbalance--ideological imbalance in the academy when you take 
the whole country--now, there are some exceptions. There are 
conservative religious schools like the handful that Jamie 
Raskin talked about. But if you take the country as a whole, 
there is an unbelievable imbalance in the professoriate 
ideologically. And that does create a problem. And we're going 
to have to do something about it.
    Now, there are two bases for that. The less important, or 
less significant one, is self-conscious discrimination. I think 
most faculty members who participate in hiring other faculty 
could pass a lie detector test or swear on the Bible, or 
Darwin, or whatever they want to swear on, that they were being 
fair. They were just seeking excellence.
    What that shows is, that in a lot of cases, human nature 
being what it is, and it's not a progressive or left problem. 
It's a human nature problem. There's a--they don't see that 
they're being bias. They have trouble, we all do, recognizing 
excellence in work that reaches conclusions we don't like.
    So we have to eliminate the open bias. And there's too much 
of that, no question about it. But even more fundamentally, we 
have to deal with the subconscious bias.
    Just one more quick point.
    I have always prided myself on being the kind of professor 
who can advocate a view that I don't share for my students very 
effectively so that they can feel the force I of it. I always 
prided myself on that. And I was reinforced by my students on 
student evaluations who commended me for doing that.
    It was only when I began teaching with Cornel West. We're 
in the classroom together that I realized I wasn't nearly as 
good at it as I needed to be. And that's because on occasion 
upon occasion, when we would talk about a controversial issue, 
Cornel, defending the progressive point of view, would come up 
with an argument or a thought that simply would not have 
occurred to me. A really challenging argument or thought, 
better than I could have come up.
    And Cornel says he's had the same experience working with 
me. He too, in his classroom, tries to really make his students 
confront powerful conservative positions from Burke, or Adam 
Smith or any of the great conservative thinkers. But in his 
experience with me, he's noticed that, sometimes, I will say 
things that didn't occur to him in defense of the conservative 
view, and the students actually get a better representation of 
the conservative view.
    So there is an advantage in having true viewpoint 
diversity, people who actually believe what they're saying on 
campus advocating different points of view.
    Mr. Brat. Great.
    Thank you, Mr. Chairman.
    Mr. Palmer. [Presiding.] The chair now recognizes Mr. 
Raskin for a second round.
    Mr. Jordan. Mr. Chairman, just for one second.
    Mr. Palmer. Oh, I apologize.
    The chair recognizes Chairman Jordan.
    Mr. Jordan. I got--Mr. Meadows and I have to run to a 
meeting. I want to thank our witnesses. Great panel, a great 
discussion. I wish we could do this all day, but, 
unfortunately, Mr. Meadows and I have to get to another 
meeting. And Mr. Palmer will close our hearing after a few more 
questions.
    Thank you all very much.
    Mr. Palmer. I now recognize--the chairman now recognizes 
the ranking member, Mr. Raskin.
    Mr. Raskin. Thank you, Chairman Jordan and thank you 
Chairman Palmer. And--so I wanted to try to clean up some loose 
ends here to see if we really could find some good consensus 
going forward.
    First, Dr. George, I want to start with you. One little 
point that occurs to me after you just spoke. I'm not quite 
sure why you would describe Adam Smith as a conservative as 
opposed to a liberal. He, of course, was a great liberal 
economist and philosopher. But you can take a shot at that in 
the course of answering this.
    Those people who consider themselves on the left, as Dr. 
Weinstein puts it, who are going to meetings and just shouting 
people down are not only portraying the great principle of the 
freedom of speech and discourse and debate that liberalism has 
thrived on. But they're also, I think, mutilating the great 
old-fashioned art of American heckling.
    Now, I just reread the Lincoln-Douglas debates. And if you 
read, at least I think it's the Hofstadter version, you'll see 
the interlineated, lots of heckles that come from the audience, 
but they're not meant to drown out Stephen Douglas or Abe 
Lincoln. They're meant to really advance the dialectics of the 
discussion. And you that the Presidential candidates respond to 
them, and they integrated, and nobody's trying to suspend the 
people or expel them for having done that.
    So is there some way of reviving the delicate and subtle 
art of heckling where people can actually yell something out? I 
mean, somebody did it on the floor of the House. I wasn't a 
member then. They yelled at President Obama ``You lie,'' which 
was not particularly artful or subtle. But he wasn't expelled 
for it. He wasn't kicked out of the institution or censured for 
it. Now, if he had continued, I think he probably should have 
been.
    I'm sorry?
    So just--if you have any quick thoughts on that.
    Mr. George. Well, my favorite episode during the Lincoln-
Douglas debates was when someone called out to the audience, 
``Lincoln, give us something other than Dred Scott,'' because 
Lincoln had been going on and on and on about the Dred Scott 
case. And Lincoln fired back quick as a cat, ``Yeah. You want 
something else? Because Dred Scott hurts too much.''
    And that's, I think, exactly the kind of thing that you 
want----
    Mr. Raskin. That's the doctrine.
    Mr. George. --that you had in mind.
    Mr. Raskin. Well, you guys should teach about heckling when 
you do your rhetoric classes, because there's a good way to do 
it and there's a stupid, infantile, juvenile way to do it.
    Mr. George. Very quickly on Adam Smith. I think you raise 
an important point, and I think Congressman Brat was pushing up 
this alley.
    Mr. Raskin. Please make it fast, because I'm running out of 
time.
    Mr. George. Oh, yeah. Very quickly.
    So American conservatives are not the blood and soil and 
throne and altar conservatives of old Europe. American 
conservatives are actually old-fashioned liberals. They're 
classical liberals in the tradition of Smith, Madison.
    Mr. Raskin. Okay. So we're together on that. Smith was a 
liberal.
    Okay. So, now, look, we--I think everybody here is agreeing 
that the First Amendment should apply in full force in a robust 
way on public campuses. Everybody seems to agree.
    Dr. Harper, do you have to go? I'm going to ask you this 
one, and then you've got to go, I understand, to the airport, 
so let me start with you.
    Some of you seem to agree that either, as a matter of law, 
or more likely, as public policy or politics or common sense 
that it should apply to private colleges and universities as 
well.
    Now, a couple of people have said, well, except for ones 
that want to identify religiously or to a certain percentage of 
religiosity. It shouldn't apply to them. And there, any manner 
of political correctness goes, bans on interracial dating, bans 
on profanity, bans on pro-choice groups, bans on groups that 
are politically incorrect from a right wing perspective. I'm 
not sure I get the logic of that especially after what 
Congressman Brat just said. He's from Virginia. It reminded me, 
Thomas Jefferson thought that the whole point of education was 
to break from religion in the church. He said explicitly, when 
they created the University of Virginia, there could be no 
school of divinity. And he thought at least at that point in 
our history, that theology and religious dogma were at war with 
reason and science. Okay. But do you agree that we shouldn't 
care about freedom of speech on self-defined religious 
campuses?
    Mr. Harper. I think we should care about freedom of speech 
on every campus, including the religiously affiliated ones that 
you've named, because they will produce college graduates who 
will go into the world. And my perspective is that we ought not 
graduate racists, sexists, homophobes, and so on. And when we 
don't create space for the meaningful exchange of ideas, 
despite our religious differences, that is the outcome.
    Mr. Raskin. So if Georgetown disallows the pro-choice group 
to organize, if Catholic University said no pro-choice speakers 
on campus, that's something that should be a matter of public 
concern because those are great universities?
    Mr. Harper. Absolutely.
    Mr. Raskin. Okay. Let me just ask this, finally. A lot of 
people have converged around the University of Chicago 
principles, which really is a pretty excellent and exquisite 
statement of speech and toleration on campus.
    Is there a way to get people together across lines of 
public, private, religious, secular, to come together on 
principles that would bind us all together in terms of the some 
of the tougher issues?
    Dr.Weinstein, what do you think?
    Mr. Palmer. If the gentleman would yield?
    Mr. Raskin. Yeah.
    Mr. Palmer. Out of respect for Dr. Harper. I understand 
that Dr.Harper has a flight to catch. And so without objection, 
we will allow you to leave the panel. If you get to the airport 
and it is delayed 2 hours, call us and we'll have you back.
    Mr. Harper. Thank you.
    Mr. Mitchell. Mr. Chair?
    Mr. Palmer. Thank you for your testimony.
    Mr. Mitchell. Dr.Harper, before you--if I can?
    Mr. Palmer. Well, the ranking member has----
    Mr. Mitchell. Would Mr. Raskin yield for one question of 
Dr. Harper?
    Mr. Raskin. Sure. Question within a question.
    Mr. Mitchell. It is short. And I'm going to ask all of the 
panels to get to it.
    I agree the First Amendment is an incredibly blunt 
instrument. This was my preference to deal with this issue to 
get to diversity of thought. It is unfortunately, legally, the 
only one we have, but the question I have for you is, how do we 
get to that standard of diversity thought and expression?
    And I know you have to leave, so I'll stop. I'm going to 
ask everybody else later, but I just wanted to catch you before 
you left, sir.
    Mr. Harper. I think we have to do a better job of preparing 
college faculty members and administrators to facilitate that, 
and to create the conditions that allow for the thoughtful 
exchange of ideas. The truth is, and it's higher education's 
dirty little secret, that very few faculty members in their 
Ph.D programs learn how to teach well, period, right, or at 
all.
    It does not surprise me, then, that so few of us know how 
to responsibly create conditions in classrooms that allow for 
the contestation of ideas. I think that in that way, regents 
and trustees and others have to do a better job of equipping 
faculty members and administrators with the things that we 
never really got anywhere else in our educational upbringing 
around these issues.
    Mr. Mitchell. Thank you, Dr.Harper. Thank you.
    Mr. Palmer. Dr.Harper, thank you for your testimony.
    You may be dismissed.
    Mr. Harper. Okay.
    Mr. Palmer. And Mr. Raskin controls the time.
    Mr. Raskin. Mr. Chairman, thank you. I'm just going to 
reformulate my final question. And I'm going to make it focus 
on this sticky and interesting question of disinvitation. 
There's an article in The Weekly Standard I found written by a 
conservative Republican student at UCLA named Mariela Muro 
called, ``I Helped Get Milo Yiannopoulos Disinvited From UCLA, 
and Here is Why.''
    And I guess there are different voices, some saying because 
of racism, some say because of sexism, some says because he had 
advocated sex between men and boys, he had advocated child 
molestation. But he had certainly been invited, and there was a 
disinvitation. And I think that the ethics of that, the 
politics of that, the legality of it is complicated. And you 
know, the Chicago statement is great from the standpoint of 
general principles.
    But in terms of dealing with these really sticky problems, 
what happens if a hate group says they want to come March on 
your campus the way they did at UVA on that Friday night in 
August of 2017. What do you do?
    So I'm just wondering, is there some effort within academia 
to tackle the hard problems and come up with an agreed-upon way 
of dealing with them so this isn't always the cause for 
polarization and division?
    Mr. Langhofer. I would like to just address that very 
quickly. I think there's a distinction that we need to make 
between when a college invites a speaker and when a student 
group invites a speaker. And most of the things that we're 
talking, the disinvitations relate to when a student group 
invites a speaker. When they invite a speaker, that's their 
speech, and they cannot be denied that speaker.
    Mr. Raskin. I got you. My question is, now, at this point, 
late in the game is about the process. What can we do so we're 
not having these ridiculous PC controversies for the rest of 
our lives so we can really try to work out some good ground 
rules? Yes, Dr.Weinstein.
    Mr. Weinstein. There's a natural tension between the duty 
of a college or university to curate the content so that the 
students are encountering things that enrich them and its duty 
to guard freedom of expression. And I think we just should be 
honest about the fact that that tension exists.
    I mean, peer review does shut down viewpoints that aren't 
deemed of a high quality and that we don't commonly take that 
to be an infringement of free speech.
    As to your question about the effect of something like the 
University of Chicago letter, I must say that there's a paradox 
here for those who espouse a libertarian economic perspective, 
which is, the Chicago letter would seem to protect freedom of 
expression better than any other campus in the Nation that I'm 
aware of. That, presumably, will give students who go there a 
competitive edge, because they will have been exposed to 
challenging ideas and will have sharpened their toolkit in 
response.
    And so, why is that letter not spreading? Why are college 
campuses not falling all over themselves to embrace this in 
order to collect those students who are looking for a college 
campus that will expose them to the highest quality material 
available?
    So I don't know the answer to that question, but I do find 
it interesting that Chicago was able to articulate these things 
and survive it, and other colleges have not embraced the same 
principles.
    Mr. Raskin. And Dr.Stanger?
    Ms. Stanger. Yeah, in my particular instance, I think I 
would not have been injured as I was if students had not 
invited in an outside menacing and hateful group the AntiFa 
group from--I don't know what their name is, but it was an 
AntiFa group from Burlington.
    So we could say that students have the right to invite 
speakers, but if they're going to invite menacing and hateful 
groups like the AntiFa extreme left, or like people with 
torches on the UVA campus, then they should be seriously 
disciplined. That would be my solution.
    Mr. Raskin. All right. Mr. Chairman, thank you very much.
    Mr. Palmer. I thank the gentleman. The chair recognizes the 
gentleman from Michigan, Mr. Mitchell.
    Mr. Mitchell. Just one quick question. And I appreciate 
everyone. This is one of the best hearings that I think I've 
been involved in in a year and-a-half in Congress. It truly 
has. It's been a great discussion.
    I would ask you the same question I asked Dr.Harper before 
he had to leave for his flight.
    I agree the First Amendment is an incredibly blunt tool to 
assess what you're trying to achieve at the college campus. The 
question is how we get to a tool that we can, as you look at 
it. Is it government entities? Is it funding entities? Are we 
achieving a diversity of thought and expression that is broad 
and inclusive enough to accept conflict and things we don't 
like to hear beyond the First Amendment?
    How do we do that or evaluate that or assess that as we 
look at these things? Otherwise, we end up in a very blunt PC 
discussion, or we end up in a First Amendment and hope there's 
some value, something from Scalia, right? How do we do that?
    Dr.Langhofer. I'm sorry.
    Mr. Langhofer. I think it starts with the leadership down. 
Many of these colleges that we've seen where there have been 
riots happen, where there's been violence, they have policies 
which outlaw that type of activity. And if the universities 
would simply enforce the policies that are on the books and 
say, Look, you can't block access to these doors, you can't 
violently stop somebody from attending and actually enforce 
those, I think that would set the precedent and it would show 
that they really mean what they say.
    They say they're seeking truth and they want ideological 
diversity, but they're not enforcing the policies across the 
board.
    So just like the Congress is doing here, it's been great to 
hear members from both sides say, look, free speech is 
important. And I think setting this bar as Congress saying it 
is important and you have to hear diverse views, it then 
trickles down to the administrators to say, We mean what we 
say, and if somebody comes that you disagree with, you can't 
violently oppose that. And I think you would see a lot fewer 
shout-downs if they started enforcing the policies on the 
books.
    Mr. Mitchell. Thank you. I also--Dr.Harper's point, which I 
hope we can make on a broader basis is, it didn't strike me 
until he said that, that we really don't prepare most college 
faculty to be good instructors in that sense. It hadn't dawned 
on me until I had the good fortune, for the most part, of 
having that. It hadn't dawned on me until he said that that, 
sure, absolutely.
    Dr.Weinstein, what can you suggest?
    Mr. Weinstein. Well, let me add something to that. He's 
quite right, that we don't train people to teach. And we also 
never spell out that the job of an educator is to teach you how 
to think, not what to think.
    So the fact that somebody at the front of the room happens 
to have a perspective that they hold dear, shouldn't mean that 
they are attempting to transmit it to students wholesale. They 
should give them the tools to evaluate for themselves.
    Unfortunately, what we are seeing is the result of the 
politicization of the commons, effectively. And I suspect that 
that's the result of two things, which is that people do not 
feel well-represented by the governance apparatus, and of the 
fact that they feel a threat of austerity which is causing them 
to be tribal.
    So if you really want to address this problem, people have 
to understand that they have more to gain by being patriotic 
together than by fighting each other for scraps. And I can't 
see a way around this.
    The First Amendment is simply not sufficient to protect the 
free exchange of ideas in the private sector. It is not 
sufficient to protect it on college campuses that don't happen 
to be public. And it's actually not especially useful on public 
campuses where it doesn't deal with issues like censorship, or 
self-censorship.
    Mr. Mitchell. Dr.Stanger, do you have anything else before 
we wrap up?
    Ms. Stanger. Just very quickly. We need to teach students 
how to think, not what to think. And that's our main objective.
    Mr. Mitchell. Dr.George?
    Mr. George. I'll just conclude by saying that the first 
thing I would like to see are more faculty members exemplifying 
the courage of Allison Stanger and Bret Weinstein.
    We teach more effectively by example than we do by precept. 
And seeing professors who are willing to stand up to 
threatening mobs, seeing professors who are willing to question 
orthodoxies, whether they're on the left or the right, is the 
greater encouragement to students that we could have.
    As far as Congress and the State legislators are concerned, 
I think it is very important that Congress not try to run 
universities. The State legislators not try to run 
universities. But I go back to my point about keeping a 
spotlight. Sunlight really is the best disinfectant. And one of 
the things that you and your colleagues and the State 
legislators can do is keep the spotlight on by having hearings 
of this sort. So people in the universities know that others 
are watching and that others care about this, and that they're 
not going to just let this go on without comment.
    Mr. Mitchell. There are days I'm not certain Congress can 
run itself, so your advice is well-warranted.
    Mr. Chair, I yield back. Thank you for the patience.
    Mr. Palmer. I thank the gentleman.
    In closing, first of all, I want to thank the students who 
stuck it out through this rather lengthy hearing.
    Once a month, I host a breakfast for young people. It is 
mostly millennials. And the whole point of it is to prepare 
them for the day when they're going to lead. And I hope that 
this is one of those days where this has been instructive to 
each one of you who are here today inn preparation for when 
that time comes, because it will come.
    Dr.Stanger, Dr.Weinstein, Mr. Langhofer, Dr.George, 
Dr.Harper, members up here, one day will not be here and it 
will be left to you.
    And I take it as a tremendous responsibility and obligation 
to do all that I can to prepare you for when that day comes. So 
I encourage you to hear what your professors say, but dig into 
it yourselves.
    You know, I asked that they put up the First Amendment. And 
the thing that I want to get across to you, particularly 
students, I'm speaking to you now, is be prepared to defend 
what you believe, in particular, the Constitution. We're a 
Constitutional republic. That means that you get to chose who 
come to Congress. You get to choose whether or not you 
participate in that process as a representative at whatever 
level.
    One day that day will come. I want you to be prepared for 
that. You look at what the First Amendment says. I would argue 
that every aspect of that is under threat today: your right to 
free speech, your right to assembly, your right to associate, 
the freedom of the press, and the right to petition the 
government.
    Thankfully, we haven't lost that. And also freedom of 
religion. Your religion is not confined to the church house or 
the Mosque or the synagogue. It is who you are. So exercise 
that.
    And then I believe there's a formula, and I like formulas. 
Prior to running the think tank, Dr.George, I worked in 
engineering. And you know what they say about engineers. They 
are people who are good at math but don't enough personality to 
be an accountant. I resemble that remark. But I believe there 
is a formula for gaining wisdom which leads to tolerance, and 
it is this. It is education plus experience.
    Education comes early, but it never ends. And experience 
becomes education magnified. Education experience properly 
gained and properly applied contemplated and serious coupled 
with critical self-reflection, Dr.George, and humility heals a 
sum that should reflect wisdom and tolerance.
    And denying students the opportunity to hear views 
different from their own undermines their education and limits 
their experience, and seriously limits the growth of wisdom and 
tolerance. It makes that sum that you're trying to attain much 
more difficult.
    And in my years running a think tank, it might shock you if 
I told you some of the publications that I read regularly from 
the left, and some of the people that I engaged in in 
conversations. So I was telling Ranking Member Raskin that, you 
know, he and I don't agree on a lot of things, but I learn from 
listening to people who have a different opinion than mine. And 
it is made me immeasurably better. And being able to 
intelligently address issues and to gain a more respectful 
understanding of other people's views.
    So that's my little closing comment to each of you as 
students. Thank you for being here.
    I thank our witnesses for appearing before us today. The 
hearing record will remain open for 2 weeks for any member to 
submit written opening statements or questions for the record. 
If there's no further business, without objection, the 
subcommittee stand adjourned.
    [Whereupon, at 4:15 p.m., the subcommittees were 
adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
